U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          Economic Development
                Administration


          San Bernardino International
             Airport Authority and the
     Inland Valley Development Agency

                          Final Audit Report
             No. STL-18837-9-0001/October 2008




                    Seattle Regional Office of Audits
                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                         Office of Inspector General
                                                         Washington. D.C. 20230




October 17, 2008

MEMORANDUM FOR:	 A. Leonard Smith, Regional Director
                 Seattle Regional Office
                 Economic Development Administration
                              ~'~r
FROM:                     Judith 1. Gordon
                          Assistant Inspector General
                             for Audit and Evaluation

SUBJECT:	 	                Final Audit Report No. STL-18837-9-0001
                           San Bernardino International Airport Authority and/or
                           Inland Valley Development Agency
                           San Bernardino, California
                           EDA Grant Nos. 07-49-05304, 07-49-05422, 07-49-05623, and 07-49-05672

We are attaching a copy ofthe subject audit report for your actions in accordance with DAO 213-5,
"Audit Resolution and Follow-up." The original report has been sent to the recipient, who has thirty
(30) days from the date ofthe transmittal to submit comments and supporting documentation to you.
 

We have also attached a copy of our transmittal letter. A copy of this report will be made available to
 

the public through a posting at:
 

http://www.oig.doc.gov/oig/reports/economic development administrationlindex.html.
 


Under DAO 213-5, you have seventy-five (75) calendar days from the date of this memorandum to
reach a decision on the actions you propose to take on each audit finding and recommendation and to
submit an Audit Resolution Proposal to this office. The format for the proposal is Exhibit 8 of the
DAO. As applicable, your written proposal must include the rationale and/or legal basis for reinstating
aq.y questioned cost in the report and should reference any supporting documentation relied on. Your
c<hmments should also address the funds to be put to better use, if any, cited in the audit report. Under
theDAO, the Office ofInspector General must concur with your proposal before it may be issued as a
final determination and implemented. The DAO prescribes procedures for handling any disagreements
this office may have with the Audit Resolution Proposal. Also, please copy us when the audit
determination letter is sent to the auditee.

Any information or inquiry regarding this final report should be directed to our Seattle Regional
Office. All correspondence concerning this report shoul~ refer to our Final Audit Report
No. STL-18837-9-0001.

Attachment

cc:	 	   Anita Sanders, EDA Audit Liaison
         Kristine Skrinde, Acting Chief, Public Works Division
         Mary Rudokas, EDA Project Engineer
U.S. Department of Commerce                                                                            Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                                             October 2008
 




                                                              CONTENTS
 


Introduction......................................................................................................................... 1 
 



Findings and Recommendations ......................................................................................... 4 
 


   I. 	 Grantee Performed or Made Acceptable Progress toward Award 

           Goals and Objectives ...............................................................................................4 

   II. 	 Results of Financial/Compliance Audit ...................................................................6 
 

       A. 	 $573,375 Is Due the Federal Government .......................................................... 6 
 

       B. 	 Grantee Procurement Policies and Practices and Records Retention 

               Policies Need Improvement................................................................................ 9 

       C.	 Grantee Needs Construction Management Controls, Policies and Procedures 11 

       D. 	 Grantee Financial Management System Does Not Meet Minimum

               Federal Standards.............................................................................................. 14             

       E. 	 Grantee Needs to Institute Controls Sufficient to Comply with Program

               Income Requirements ....................................................................................... 15                 

       F.	 Grantee Property Management Needs Improvement........................................ 17 
 



Recommendations............................................................................................................. 17 
 


Appendix A: Objective, Scope, and Methodology........................................................... 19 

Appendix B: Recipient Response to the Draft Audit Report ........................................... 21 

Appendix C: Summary of Source and Application of Funds - Grant No. 07-49-05304 

                    For the Period of September 26, 2002 through September 30, 2005 ......... 29 

Appendix D: Summary of Source and Application of Funds - Grant No. 07-49-05422 

                    For the Period of September 30, 2003 through June 30, 2007 ................... 30 

Appendix E: Summary of Source and Application of Funds - Grant No. 07-49-05623 

                    For the Period of September 23, 2004 through September 30, 2006 ......... 31 

Appendix F: Summary of Source and Application of Funds - Grant No. 07-49-05672 

                    For the Period of June 21, 2005 through June 30, 2007 ............................. 32 

U.S. Department of Commerce                                                  Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                   October 2008
 




Appendix G: Summary of Financial/Compliance Audit - Grant No. 07-49-05304
               For the Period of September 26, 2002 through September 30, 2005 ......... 33 

Appendix H: Summary of Financial/Compliance Audit - Grant No. 07-49-05422 

               For the Period of September 30, 2003 through June 30, 2007 ................... 35 

Appendix I: Summary of Financial/Compliance Audit - Grant No. 07-49-05623 

               For the Period of September 23, 2004 through September 30, 2006 ......... 38 

Appendix J: Summary of Financial/Compliance Audit - Grant No. 07-49-05672 

               For the Period of June 21, 2005 through June 30, 2007 ............................. 39 
 

Appendix K: Letter to Recipient Transmitting the Final Report ..................................... 40
U.S. Department of Commerce                                            Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                             October 2008 
 



                                       INTRODUCTION
 


This report presents the results of our audit of Economic Development Administration (EDA)
grant numbers 07-49-05304 (final), 07-49-05422 (interim), 07-49-05623 (interim) and
07-49-05672 (interim). The objectives of the audit were to determine whether (1) costs claimed
under the EDA awards were reasonable, allowable, and allocable to the sponsored project;
(2) award objectives were achieved or appropriate progress had been made towards award
objectives; and (3) accounting, procurement, and project management practices and controls in
effect at the time of the grant performance complied with award requirements, assured efficient
grant administration, and resulted in an acceptable final product. See APPENDIX A for details
regarding the audit scope, methodology, and standards.

The grants, detailed in Table 1, were awarded to the San Bernardino International Airport
Authority (authority) and the Inland Valley Development Agency (agency) individually or
jointly and provide for a federal share of 90 percent of the total estimated project costs, each with
a specific not-to-exceed limit. Additional costs are the grantee’s responsibility. The grants are
part of a series of nine defense economic adjustment assistance awards with a total estimated
project cost of over $45 million to date that implement a base reuse strategy designed to convert
the former Norton Air Force Base to civilian and commercial use. Planning and implementation
efforts began under an award initially made in February 1994 and subsequently amended three
times. This award was completed prior to the grants under audit; and four subsequent awards,
implementing additional elements of the strategy, follow those included in our audit scope.

Funds for the awards were provided by the Department of Defense Office of Economic
Adjustment from defense appropriation earmarks by members of the California congressional
delegation. The Office of Economic Adjustment and EDA collaborate under a memorandum of
understanding to help communities create a business environment attractive to investors. Under
the memorandum of understanding, the Office of Economic Adjustment provides funding as the
“cooperating agency,” while EDA functions as “lead agency.” As lead agency, EDA is
responsible for (1) developing the final project application—ensuring that all pertinent statutory
and regulatory requirements are met, (2) processing and awarding of grants, (3) making
disbursements, (4) monitoring, and (5) closing out the project in accordance with its regulations.

Base realignment and closure legislation designated Norton Air Force Base for closure, and the
base’s official cessation of operation on March 31, 1994, precipitated economic setbacks
throughout the region. In anticipation of the setbacks the affected communities formed two joint
powers authorities to help mitigate their losses. The agency, formed in 1990, is comprised of the
county of San Bernardino and the cities of San Bernardino, Colton, and Loma Linda, California,
and is responsible for the redevelopment of the non-aviation portion of the former base. The
authority consists of the same entities as the agency plus the city of Highland, California, and
was formed in 1992 to oversee the aviation portion. Although the authority and the agency are
two separate business entities, they operate out of the same offices and share executive,
management, and administrative staff. Authority commission members, with the exception of
those representing the city of Highland, also serve on the agency board. For this reason we have
presented the results of the audit in a single audit report addressed to both entities. Also for



                                                 1
 

U.S. Department of Commerce                                                Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                 October 2008 
 


purposes of this report we refer to the agency and the authority, individually and collectively, as
“the grantee.” However, the APPENDIXES clearly identify the specific grant and grantee.

Table 1. Award Detail
 Grantee                                Total
                                      Estimated                  Audit
                Offer     Award        Project       Percent     Cutoff
   Award No.    Date      Period        Cost        Complete      Date                   Purpose
 San Bernardino International Airport Authority
                                                                            • Hangar 763: Demolition and
                                                                               reconstruction of electrical
                                                                               backbone, some electrical
                                                                               rewiring on top of backbone
                                                                               design, and in-house construction
                          9/2002-
                                                                               of Bay doors 1 & 2 and west
 07-49-05304    9/26/02   12/2005      $2,638,889      100     9/30/2005
                                                                               annex
                                                                             • Hangar 695 & 795: Fire
                                                                               suppression design and
                                                                               construction; underground piping,
                                                                               pump station, and emergency
                                                                               power
                                                                             • Terminal: HVAC/alarm system
                                                                               upgrade
                                                                             • Bldg. 730: Re-roof; demolition
                          9/2003-                                              and HVAC replacement
 07-49-05422    9/30/03
                          9/2008
                                        2,691,667      97      6/30/2007     • Hangar 763: Fire suppression
                            (60                                                installation, pump station valve
                          months)                                              modifications; design and
                                                                               equipment for backbone electrical
                                                                             • Hangar 795: Repair door and
                                                                               alarm
 Inland Valley Development Agency
                                                                         • Demolition of 31 structures and
                          9/2004-
                                                                           cut and cap all utilities
                          9/2009
  07-49-05623 9/23/04                  3,588,889    80       9/30/2006 • Jet Rocket Engineering and Test
                            (60
                                                                           site west: Landscape, irrigation,
                          months)
                                                                           and perimeter security
 Inland Valley Development Agency and San Bernardino International Airport Authority
                                                                         • Roadway and infrastructure
                                                                           improvements related to Harry
                                                                           Sheppard Blvd., Leland Norton
                          6/21/2005-                                       Way, George Webster Drive and
                          6/21/2010                                        demolition of East Drive
  07-49-05672 6/21/05                  4,486,112    61       6/30/2007
                             (60                                         • Bldg 747: Demolition of two
                           months)                                         thirds of building, roof and wall
                                                                           of 1/4th of the building
                                                                         • Hangar 763: Asbestos abatement
                                                                           in the east annex
 Total Estimated Project Cost        $13,405,557




                                                    2
 

U.S. Department of Commerce                                          Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                           October 2008 
 


On September 24, 2008, the recipient provided comments and supporting documentation in
response to our draft audit report, which we have evaluated and considered in the preparation of
this final report. A synopsis of the recipient’s responses to the draft report and our comments
follow each related section. The recipient’s letter is included as Appendix B. We did not include
the attachments to the recipient’s letter because they included sensitive information.

The recipient agreed with the need to improve controls and procedures to ensure compliance
with award requirements but disagreed with the need to improve its financial management
system. Of the $700,335 in costs we questioned (before offsetting for the $63,253 cost overrun
on grant number 07-49-05304), the recipient disagreed with $646,493. For reasons detailed in the
following sections, we are unable to accept the recipient’s arguments; and we reaffirm our
findings and recommendations.




                                                3
 

U.S. Department of Commerce                                           Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                            October 2008 
 



                               Findings and Recommendations

I. Grantee Performed or Made Acceptable Progress toward Award Goals and Objectives

The primary purpose of the EDA grants is to promote economic development by upgrading,
rehabilitating, and renovating former base facilities to enable the grantee to lease facilities and
retain and create jobs. At the time of our audit, one grant was complete, two others were
substantially complete, and the fourth was two-thirds complete. Our review disclosed that the
grantee had accomplished the objectives set forth in the one completed grant (07-49-05304) and
made sufficient progress toward accomplishing the goals and objectives of the on-going awards
included in our audit scope (07-49-05422, -05623, and -05672). Our conclusion was based on
our observation of grantee accomplishments in the fall of 2007 and documents the grantee
subsequently secured in July 2008 from responsible construction management and architectural
and engineering consultants certifying after-the-fact that construction was completed in
accordance with contract terms and conditions, including approved plans and specifications.

Figure 1. Hangar 763




OIG, October 2007

The scopes of work set forth in Table 1 are for the grants, as amended, in effect at the time of our
audit. The awards provide for infrastructure improvements to support the development of a
business park and airport operations at the former Norton Air Force Base. In aggregate, the



                                                 4
 

U.S. Department of Commerce                                           Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                            October 2008 
 


awards to date fund the upgrade of the terminal building and select hangars and include
demolition and reconstruction of existing structures and infrastructure and roadway
improvements; air/heating/alarm system upgrades; deconstruction and deconstruction
management of asbestos abatement. Each grant implements a portion of the planning funded
under previous, completed grants that defined the overall project to convert the former Air Force
base to civilian use and promote economic adjustment in the San Bernardino area. As funding for
this conversion is made available through specific earmarks of annual Department of Defense
appropriations and transferred to EDA to award and administer, EDA awards a grant to fund a
defined portion of the overall conversion project. The portion of the overall project to be funded
is based on EDA’s evaluation and approval of the grantee’s application for the earmarked funds.

Because the projects involve rehabilitating, restructuring, and revitalizing old military facilities
for which precise as-builts and overall structural and environmental conditions are not always
initially known, arriving at a precisely defined scope and estimate of project cost that fits
available funding is not always possible. Early in the process the grantee shifted award scopes as
needed to utilize available earmarked funds. As such it was difficult for the grantee and EDA to
keep each award distinctly defined, and the various awards have been subject to amendment and
construction contracts are frequently changed. Questions raised by a new EDA project engineer
in late 2005 disclosed problems with shifting scopes of work and precipitated two short trips to
sort out award scopes of work and costs incurred and ultimately produced the amended scopes
set forth in Table 1. It was those adjusted scopes that formed the basis for our review of grantee
performance. The grantee and the new EDA project engineer have worked collaboratively to
ensure that the awards, scopes of work, and approved budgets are clearly identified and
distinguished from one another and within the annually appropriated earmarks. Therefore, we
have accepted completed performance under grant no. 07-49-05304 and performance to date on
the projects that were the subject of our interim audits. However, we encourage the grantee to
institutionalize controls and provide sufficient technical staffing such that the improved progress
to date is sustained and projects in progress produce an acceptable and well-defined final project.




                                                 5
 

U.S. Department of Commerce                                            Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                             October 2008 
 




II. Results of Financial/Compliance Audit

A. $573,375 Is Due the Federal Government

The grantee claimed total project costs of $10,819,511 through the specified final and interim
audit cutoff dates. Our review disclosed that the grantee failed to ensure that its administration of
the grants adhered to award terms and conditions inclusive of application assurances, federal cost
principles, and uniform administrative requirements, causing us to question $637,082. The
results of our cost-incurred audit of the four grants are summarized in Table 2 and detailed in
APPENDIXES F through I.

Table 2. Summary of the Financial Results of Audit
 Federal Funds Disbursed                                                                $9,737,561
 Total Project Costs Claimed                                          $10,819,511
 Less Questioned Costsa/                                                  637,082
  Accepted Costs                                                       10,182,429
 Federal Share (90%)                                                                     9,164,186
  Amount Due to EDA                                                                     $ 573,375
Legend:
a/
   Of the $637,082 questioned ($700,335 less $63,253 in cost overruns on grant number
   07-49-05304), $513,207 were unsupported

Grantee Response and OIG Comments

Grantee Response

Of the $700,335 in costs questioned the recipient disagreed with $646,493 as follows:

              •   Labor and fringe benefits expense           $249,088a/
              •   JM Carden Change Order 1                     149,575b/
              •   Aero Change Order 1                          144,000c/
              •   Allison Chiller                               85,690d/
              •   CEDC Ceiling Overrun                          18,140e/
                      Total                                   $646,493
Notes
a/
     The grantee contended that EDA had accepted its time distribution system based on a grantee
     letter certifying its system. The grantee appended a copy of the letter and an example of its
     labor accounting as Attachment 1 to its response. The grantee maintained that it was the
     grantee’s and the former EDA project manager’s understanding that the certification was
     approved as acceptable system for support of salaries and wages and added that the system
     was approved years earlier by its cognizant agency at the time, FAA.




                                                  6

U.S. Department of Commerce                                                Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                 October 2008 
 


       The grantee also contended that EDA’s approval of the grantee’s first reimbursement request
       indicated it accepted the grantee’s time distribution methods and that changing criteria is
       confusing and unfair. The grantee claimed that its system was approved by FAA because it has
       a time distribution system that complies with OMB Circular A-87, and it does distribute actual
       labor costs.
b/ 	
       The grantee asserted that the J.M. Carden Change Order 1 is allowable because (1) the Board
       approved the work, (2) EDA approved the change order, (3) the grantee’s construction
       manager approved the change order and confirmed completion in accordance with approved
       plans and specifications, and (4) the local fire department inspected and approved the system.
       The grantee also contended that EDA approved funding and reimbursement for the change
       order.
c/ 	
       The grantee contended that the Aero Change Order 1 is allowable because the fire suppression
       work dealt with improvements to an integrated system, which affected all four bays—not just
       the two that were cited as within the scope of EDA grant number 07-49-05422, and which was
       required to meet life and fire safety code requirements. The grantee asserted that its
       construction manager approved the work and certified its completion, and the local fire
       department and the Board approved the work as well. The grantee noted that EDA approved
       and reimbursed the grantee for the change order and stated that it should be able to rely on
       those approvals.
d/ 	
       The grantee asserted that the original value of the chiller and its relocation cost are allowable
       because it was originally installed on building number 48, which was later rendered
       “infeasible, as the tenant thereof closed its business.” The grantee relocated the chiller to
       building 730 allowing it to “retain/create over 50 new jobs in building 730.” The grantee stated
       that EDA reviewed, approved, and reimbursed the grantee for the $85,690.
e/ 	
       The grantee maintained that $18,140 in engineering fees questioned as being in excess of the
       engineering agreement’s fee ceiling is allowable because they are valid construction expenses,
       which EDA reimbursed. The grantee agreed that it should have requested EDA approval to
       shift amounts from one budget category of expense to another and noted that it had sufficient
       contingency at the time to do so.

OIG Comments

We disagree with the grantee’s various assertions with regard to the $646,493 contested above,
and reaffirm total questioned costs of the $637,082 ($700,335 less $63,253 in cost overruns on
grant number 07-49-05304). Our following comments are keyed to the notes in the preceding
section.
a/
       We reaffirm questioned costs of $249,088 for lack of an adequate time distributions system.
       Federal requirements for support for time distribution are in addition to standards for payroll
       documentation. The grantee’s time distribution system does not comply with federal cost
       principles at OMB Circular A-87, Attachment B.11(h)(5), which identify the minimum
       requirements for time distribution records required to allocate labor to projects. The grantee’s


                                                      7
 

U.S. Department of Commerce                                               Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                October 2008 
 


       system complied with the requirements, with the exception of provision (5)(b)—it did not
       account for the total activity for which each employee was compensated. The grantee’s staff
       prepared time cards indicating the total time worked in support of the grantee’s payroll system
       but prepared activity reports on an exception basis, identifying time worked on various federal
       grants and programs, which the grantee used to allocate labor and fringe benefits to the grants
       and programs. The distribution records did not account for and distribute the total activity for
       which each employee was compensated.

       Although the grantee indicates that its time distribution system was previously approved by
       FAA, it did not provide support for this statement. Nor did it provide support for its contention
       that it was the understanding of both the grantee and the former EDA program manager that
       the grantee’s certification was approved as an acceptable system for the support of salaries and
       wages. The grantee attachment provided in support of its statement that it provided
       certifications to EDA simply notes that reported salaries were approved and paid and
       supporting documentation was readily available and on file in the grantee’s office. The
       grantee’s assertions that (1) EDA’s approval of its reimbursement request and disbursement of
       funds indicated acceptance of the costs and (2) changing criteria is confusing and unfair are
       not compelling. The grantee accepted the various EDA grants with federal cost principles and
       uniform administrative requirements clearly incorporated by reference and with EDA Standard
       Terms and Conditions for Construction Contracts appended. EDA also provided copies of
       EDA’s Requirements for Approved Construction Projects with the early awards. The
       requirements for time distribution records have not changed (although the specific numeric
       citation within OMB Circular A-87 changed in 2004). Furthermore, uniform administrative
       requirements applicable to the grants at 15 CFR 24.51 stipulate that the funding agency has a
       right to disallow costs and recover funds on the basis of a later audit or other review. This
       provision is also present in EDA’s Standard Terms and Conditions for Construction Projects,
       EDA’s Requirements for Approved Construction Projects, and in EDA’s closeout memoranda
       for completed awards.
b/ 	
       We reaffirm questioned costs of $149,575 for J.M. Carden Change Order 1 as unsupported.
       The grantee has not provided a bilaterally executed change order required by 13 CFR 305.19
       (2002) or the cost analysis and evidence of a separately negotiated profit required by 15 CFR
       24.36(f)(1) and (2) for this change order. As discussed at length in our response to Note a/
       above, the fact that EDA approved the change order and the grantee’s reimbursement request
       and disbursed funds for Change Order 1 does not obviate the requirement that costs claimed be
       adequately supported or preclude subsequent adjustment based on a later audit or other review.
c/ 	
       We reaffirm questioned costs of $144,000 for Aero Change Order 1 as unsupported. While the
       grantee has provided additional explanation for the change order, which benefited all four bays
       of Hangar 763 rather than just the two bays that were included in the scope of the grant, the
       grantee did not provide documentation supporting its explanation or detail confirming that the
       overall, four-bay system upgrade was needed to obtain a certificate of occupancy to lease all
       four bays when two were already occupied. Furthermore, the documentation attached to the
       grantee’s response was a copy of the EDA project manager’s approval of the change order.
       However, that approval does not mitigate the absence of the cost analysis and separate
       negotiation of profit required by uniform administrative requirements at 15 CFR 24.36(f)(1)


                                                     8
 

U.S. Department of Commerce                                               Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                October 2008 
 


       and (2). As discussed at length in our response to Note a/ above, the fact that the former EDA
       project manager approved the change order or that EDA approved the grantee’s
       reimbursement request and disbursed funds for Change Order 1 does not obviate the
       requirement that costs claimed be adequately supported or preclude subsequent adjustment
       based on a later audit or other review.
d/ 	
       We reaffirm questioned costs of $85,690 for depreciation and relocation cost for the chiller
       relocated from building 48 to building 730 as unreasonable and unnecessary. We do not
       dispute that the chiller is currently in service at building 730, and we accepted the depreciated
       value of the chiller. We questioned depreciation of the chiller for the 19.75 months that it was
       in service at building 48 plus the cost of relocating the chiller to building 730, which was
       within the scope of work for grant 07-49-05422. We could find no evidence in pre-
       applications, applications, or award documents for either grants 07-49-05403 or -05422 that
       building 48 was part of the award scopes. As discussed at length in our response to Note a/
       above, the fact that the EDA reviewed, approved, and reimbursed the grantee for $85,690 does
       not obviate the requirement that costs claimed be for work within the defined scope of the
       award or preclude subsequent adjustment based on a later audit or other review.
e/ 	
       We reaffirm questioned costs of $18,140 in engineering fees claimed in excess of the
       engineering agreement ceiling. The issue does not involve approval of shifts in approved
       budget categories but rather the fact that the grantee paid and claimed $18,140 in excess of the
       cost ceiling set forth in its agreement for electrical engineering services. Uniform
       administrative requirements at 15 CFR 24.36(b)(10)(ii) provide that grantees will only use a
       time and materials type contract, if the contract includes a ceiling price that the contractor or
       consultant exceeds at its own risk. As detailed in note 3d of Appendix H, the ceiling
       established for the engineering contract was $184,065. The grantee claimed a total of $202,205
       without an approved change order. The excess is unallowable for federal participation. As
       discussed at length in our response to Note a/ above, the fact that the EDA approved the
       grantee’s reimbursement request and disbursed funds for the $18,140 in excess payments to
       the electrical engineer does not obviate the requirement that costs claimed be adequately
       supported or preclude subsequent adjustment based on a later audit or other review.

B. Grantee Procurement Policies and Practices and Records Retention Policies Need
   Improvement

The grantee had a purchasing policy and change order procedure that described the procedures to
be followed for purchasing goods and services, set forth instructions for construction contracts
and change orders, and established a conflict of interest policy. However, our tests of contracts,
change orders, professional services agreements, and purchases disclosed that grantee
procurements of such goods and services did not always meet financial management support
provisions, minimum federal procurement standards, or records retention provisions of applicable
uniform administrative requirements at 15 CFR Part 24.20, .36, and .42 or federal cost principles
of OMB Circular A-87, Attachment A C.1(j). Grantees must maintain records sufficient to detail
the significant history of procurements and accounting records must be supported by source
documentation including those records specifically prescribed by uniform administrative
requirements and federal cost principles. Grantees must retain supporting documentation for three


                                                     9
 

U.S. Department of Commerce                                           Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                            October 2008 
 


years after the submission of the final reimbursement request. The authority submitted a final
reimbursement request for EDA Grant No. 07-49-05304 on January 30, 2007. Two of the
remaining three grants were nearing completion while the third was on-going.

The grantee was unable to provide required documentation or documents were incomplete for a
number of critical procurements. Review of grantee policies and tests of actual procurement
procedures disclosed that the grantee lacked a defined records management system to safeguard
and retain required support for procurement planning, execution, and administration actions and
related financial claims to EDA. For example, we found that some construction specifications, bid
advertisements, records of required pre-bid walk-throughs, sponsoring agency approvals,
bilaterally executed change orders, cost analyses, and independent cost estimates were missing;
and contractor progress and final payment requests lacked necessary certifications that work was
completed in accordance with approved plans and specifications. Justifications for using the
hourly rate method of compensation were missing as were the cost price analyses, which are
required for all procurements and change orders. We initially received documents that grantee
financial personnel gathered to support financial reports to EDA. While these documents were
organized in binders, financial personnel acknowledged the files were incomplete and a function
of what they received from the grantee program staff.

We followed up with program staff, but after several requests, numerous data voids remained.
Grantee management explained that older records had been stored and subsequently moved and
speculated that records had been lost or misplaced in the process. However, select documents, as
opposed to entire files, were missing from virtually all procurement files that we tested, making
that explanation unlikely the sole cause of the problem. The missing and inadequate documents
represented elements (1) essential to required procurement histories; (2) necessary to manage
contractor, consultant, and vendor performance; and (3) required to support contract change
orders and agreement amendments, document funding agency approvals, demonstrate full and
open competition, and certify that work was adequately supervised and completed in accordance
with the terms of the contract and approved plans and specifications. We were poised to question
$8,936,441 or 85 percent of the total of construction costs and architectural engineering costs
claimed for inadequate supporting documentation when the grantee requested the opportunity to
obtain after-the-fact certifications from its consulting construction managers and engineers that
work had been accomplished in accordance with approved plans and specifications. The
grantee’s efforts were successful. The after-the-fact certifications for past work, coupled with the
grantee’s agreement to obtain certificates for on-going work and to revise its standard
contracting terms and conditions to require certifications in the future, enabled us to reduce
construction cost questioned for lack of adequate support to only $264,119.

Uniform administrative requirements at 15 CFR 24.36 (c) state that all procurements will be
conducted in a manner to promote full and open competition, and EDA requirements further
stipulate that advertisements for bids for construction projects should appear in publications of
general circulation a minimum of four times within a 30-day period prior to opening bids to
allow for preparation of bids and to obtain the coverage necessary to secure competitive bids and
proposals. The grantee reported that it regularly advertised its invitations for bids in a number of
local newspapers and services and systematically identified the sources used in the technical
write-ups describing the procurement activity and recommending Board or Commission


                                                10
 

U.S. Department of Commerce                                          Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                           October 2008 
 


approval. However, grantee files did not always contain publishers’ certificates or accompanying
copies of the actual advertisement for bids; and where publisher’s certificates were on file, some
indicated that the grantee failed to adhere to the 30-day minimum allowed for preparing bids to
ensure maximum and full competition. Actual bid documents were not always available, and in
at least two cases bid documents provided to us identified FAA rather than EDA as the funding
source for the project.

Grantee Response

The grantee agreed that its procurement and record retention policies and procedures need to be
expanded and further codified to ensure that they meet current EDA requirements.

C. Grantee Needs Construction Management Controls, Policies and Procedures

In the years since the base closure in 1994 and the establishment of the two grantee organizations,
federal sources funded numerous financial assistance awards to help convert the former Air Force
Base to commercial use, and the agency and authority anticipate receiving several more awards
before the conversion is complete. The project is complex and work is being accomplished
through multiple contracts, consulting agreements, and vendor purchases requiring excellent
organization, communication, and coordination. However, the grantee does not have written
project management policies and procedures defining the respective duties, responsibilities, and
authorities of its various staff and guiding the planning, executing, administering, and monitoring
of numerous projects and entities to ensure that the various component projects are completed
timely and in accordance with federal requirements and the expected outcomes are achieved.

In the absence of written project management policies, we interviewed key management staff and
examined key procurements to identify controls in use and whether they were implemented and
functioning. Our review disclosed that while the program management principal had a command
of intended controls, in actual practice those controls were either not communicated to the staff or
were not consistently implemented. The grantee clearly benefited from the program manager’s
long tenure and institutional knowledge. However, program staff were subject to normal turnover.
Both staff and the grantee require and would benefit from creation, documentation, and
dissemination of clear policy statements and manuals of implementing procedures and controls to
guide project progress and ensure that organizational goals are met and resources are used to meet
organization and project goals and objectives.

As discussed in the prior section, the grantee did not have controls in place and operating to
ensure that the required procurement documents were filed and retained. Our review of select
construction contracts and consulting agreements spanning the four grants under audit also
disclosed that the grantee controls over contract change orders and agreement amendments were
inadequate. We questioned $309,213 in claimed change order costs as unsupported because the
grantee failed to comply with minimum federal procurement standards and documentation
requirements. In two instances we noted change orders were paid, but available documentation
did not include bilateral endorsements. Cost analyses required by uniform administrative
requirements at 15 CFR 24.36(f) were either not performed or not documented. In addition, profit
was not negotiated separately. In the case of one change order for $144,000, the precise nature of


                                                11
 

U.S. Department of Commerce                                           Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                            October 2008 
 


the work to be accomplished was not clear, and we eventually determined that part of the changed
work was outside the scope of the award. Also, the cost information appended to the change order
did not clearly identify whether the grantee received credit for materials included in the original
contract that were replaced by the changed work. Consistent with our findings, the EDA project
engineer declared numerous additional change orders related to grants 07-49-05623 and
07-49-05672 ineligible for EDA participation initially because they lacked sufficient
documentation or justification and later because they were for ineligible elements of the project.
At least a part of the problem arises from the grantee practice of requesting and receiving
commission or board approval to award a contract along with a contingency amount to cover
potential change orders. According to grantee management, the policy was intended to enable the
program manager to process change orders up to the amount of the contingency without having to
hold up the project while waiting for board or commission approvals. However, in several cases
this policy resulted in the failure to provide sufficient notification and documentation of the
changes to EDA; and at least one case required a contract ratification to retroactively authorize
additional costs incurred.

In accordance with EDA guidance, each contract we reviewed incorporated both a contract
performance period and a liquidated damages provision to promote timely contractor
performance and to provide funds to offset the extra costs of grantee administration and technical
oversight of the contract in the event that the contractor failed to meet the agreed upon
performance period. EDA’s Requirements for Approved Construction Projects notes that
alterations to executed construction contracts require a formal contract change order, issued by
the grantee, accepted by the contractor, and concurred with by EDA. However, the grantee either
permitted extensions to the contract performance period without issuing a corresponding change
order or failed to either address or document time extensions. Despite the fact that virtually every
contract we reviewed (all contracts with a value of $100,000 or more) exceeded the stated
contract performance period by anywhere from a month to over a year—in no case did the
grantee invoke and collect on the liquidated damages clause. Doing so would have (1) provided
from $500 to as much as $1,500 per day to cover the additional costs incurred to administer the
contract until it was completed and (2) given contractors a financial incentive for timely
completion. Regardless of whether assessed, we would have taken liquidated damages due the
grantee as an offset to additional administrative and construction management costs. However, in
this instance there were no costs to offset because (1) we questioned the total of grantee
administrative labor and fringe for reasons detailed in subsequent sections of this report and
(2) there was no additional construction management cost claimed.

When asked to explain why the liquidated damages clause was not invoked, grantee management
stated that contract performance periods only recently became a critical concern because in the
past, the work involved unoccupied buildings and time was not an issue. Now that tenants are
involved, grantee management said that time and contract periods are critical. The explanation is
difficult to accept because the purpose of the EDA grants was economic adjustment in the form
of code upgrades, demolition, abatement, and rehabilitation of existing facilities to enable the
grantee to lease the buildings and thereby mitigate the adverse economic impacts on the San
Bernardino community accruing from closure of the Norton Air Force Base. To this end it would
be to the grantee’s and the community’s mutual benefit to complete work as soon as possible and
get previously vacant properties leased, people employed, and revenue generated.


                                                12

U.S. Department of Commerce                                         Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                          October 2008 
 




EDA’s Requirements for Approved Construction Projects requires grantees to provide competent
project inspection during construction. The grantee assured EDA that it would provide and
maintain competent and adequate engineering supervision at the construction site to ensure that
the completed work conformed to the approved plans and specifications. Our review of the two
early grants disclosed that the grantee’s project and leasing specialists had some involvement in
project management, and there was also evidence of a project management purchase order and
personal services contract; but the nature of the services was not specific, and the amounts
claimed were minor with respect to the grantee’s overall construction claims. The grantee also
hired two consulting firms to provide project management services. One agreement clearly
defined construction management functions, and information provided to us directly by the firm
demonstrated that the firm fully performed the functions. However, in the second case the full
nature of project management services to be provided was undefined, and the grantee was unable
to provide additional detail or documentation from the firm beyond the agreement and related
invoices to further elaborate on the services provided.

In the case of the more recent grants, construction management services were provided under
three principal agreements with three separate firms. We took issue with the grantee’s agreement
with one firm, which called for the firm to provide plans and specifications, procurement
assistance, and construction management services for the grantee’s demolition and abatement
project. However, costs for the services under the agreement were neither paid by the grantee nor
claimed to EDA. Instead, a key project beneficiary paid the firm for its services under the
grantee’s agreement. The agreement had a clear scope defining the firm’s responsibilities to the
grantee; however, the grantee had virtually nothing beyond construction contractor progress
payments to evidence what construction management services the firm had been providing.

While the grantee did not claim construction management costs under the agreement, the
relationship among the various parties is still of concern because it does not provide sufficient
protection of the grantee's and government's interests, could compromise quality control, and
gives the appearance of a conflict of interest. Construction management relates to services
provided by a consultant acting as a representative of the project owner. The services typically
involve administering the design and construction contracts and may include responsibility for
managing or coordinating the planning, design, and construction phases of the project. The
construction manager is generally expected to act on behalf of the project owner, representing
them in decisions related to planning, cost, and inspection. The grantee and EDA paid for the
remediation and demolition contracts; but the construction management firm, paid by the project
beneficiary, is responsible for assuring that the projects are completed in accordance with
approved plans and specifications. Because the beneficiary is paying for construction
management, it is not clear whose interests the construction manager truly serve.

The grantee did not have a clearly defined contract administration system. Uniform
administrative requirements at 15 CFR 24.36(b)(2) state that grantees will maintain a contract
administration system that ensures contractors perform in accordance with the terms, conditions,
and specifications of their contracts or purchase orders. This requirement is further underscored
by EDA’s Requirements for Approved Construction Projects, which requires surveillance of
project construction sufficient to assure compliance with plans, specifications, and all other


                                               13
 

U.S. Department of Commerce                                            Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                             October 2008 
 


contract documents. Clear certification that work claimed was in accordance with approved plans
and specifications was present for only one of the ten construction contracts with a value of
$100,000 or more that we reviewed. In other instances as examples, contractor pay estimates
included consultant initials, annotations such as “okay to pay,” or were accompanied by a letter
stating that the consultant had “searched our files and recommend that [the contractor] be paid in
full….” Such documents were then covered by a grantee “Request for Payment,” which
included signatures of the grantee program manager, the chief financial officer, and initials of the
interim executive director. However, the exact meaning of the grantee endorsements was not
clear; none of the individuals are professional engineers. In the absence of necessary technical
assurances, we advised the grantee that we intended to question $8,918,301 in construction costs
as unsupported, pending an EDA assessment to determine whether the construction adhered to
approved plans and specifications. Rather than wait for the EDA technical assessment, the
grantee promptly directed its attorney to draft after-the-fact certifications that it then had signed
by the consulting firms responsible for overseeing the construction. We accepted the
construction on the basis of the after-the-fact certifications. Grantee management stated that they
would continue to use certifications for work currently underway and would adjust standard
contract provisions to require future contractors to use the American Institute of Architect’s
Application and Certification for Payment, which incorporates an Architect’s Certificate for
Payment.

Further complicating the contract administration process was the lack of an official procurement
or contract file and the multitude of missing documents reported in earlier sections of this report.
The accounting manager had organized and secured the information she routinely received, she
extracted from other grantee sources, and she developed in support of claims submitted to EDA,
but there was no central, comprehensive repository for official contract and procurement
documents, which made ensuring that payments were made in accordance with terms,
conditions, change orders, and amendments challenging. In testing architectural and engineering
invoices to agreement terms, we questioned $5,658 in invoices paid and claimed. The rates
invoiced for one individual differed from the agreement payment schedule and another invoice
was for a period subsequent to the established agreement period. In another instance, we
questioned $18,140 in costs claimed that were in excess of the specified agreement cost ceiling.
During our exit conference, grantee management agreed with the need to strengthen and clarify
contract management and administration procedures to ensure that all parties understood their
responsibilities and authorities in the contract administration and approval process.

Grantee Response

The grantee stated that it has and administers construction management controls and procedures
and agreed that its protocols should be expanded and further codified to specifically assure that
documentation meets current EDA requirements, including selection of professional services and
construction managers.

D. Grantee Financial Management System Does Not Meet Minimum Federal Standards

The grantee’s financial management system needs strengthening to meet minimum federal
standards. Uniform administrative requirements applicable to the grantee’s awards set forth


                                                 14
 

U.S. Department of Commerce                                           Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                            October 2008 
 


minimum federal standards for financial management systems at 15 CFR 24.20(b). The grantee’s
system met most of the minimum standards. However, the grantee’s time distribution system was
inadequate. Therefore, we questioned as inadequately supported $249,088 consisting of the total
of labor and related fringe benefits claimed. Federal cost principles at OMB Circular A-87,
Attachment B.11(h)(5) identify the minimum requirements for time distribution records required
to allocate labor to projects. The grantee’s system complied with the requirements, with the
exception of provision (5)(b)—it did not account for the total activity for which each employee
was compensated. Grantee management personnel reported that although they had previously
claimed labor and fringe benefits under the EDA grants, they had since decided to eliminate
future in-house administrative charges from reimbursement requests to EDA and therefore did
not plan on changing the time distribution system to bring it into compliance with federal cost
principles.

Grantee Response and OIG Comments

Grantee Response

The grantee contended that its financial management system complies with minimum federal
financial management standards and asserted that its time distribution system is adequate as
discussed at length at Grantee Response Note a/ on p. 6 of this report.

OIG Comments

We disagree and reaffirm our finding regarding the grantee’s inadequate time distribution
system. Our position is detailed at OIG Comments Note a/ on p. 7 of this report

E. Grantee Needs to Institute Controls Sufficient to Comply with Program Income
   Requirements

Several of the buildings renovated or upgraded as the result of EDA assistance had already been
leased and were generating revenue and others were poised to produce revenue shortly. However,
the grantee was unfamiliar with the program income provisions of the awards and therefore had
neither prepared nor submitted to EDA for approval the requisite reutilization plan intended to
control and guide the application of program income expected to be generated by the various
projects during their respective, expected 15-year life. Nor had the grantee developed a
mechanism to (1) track and sequester program income generated and (2) account for expenditures
from the generated income to ensure that the funds are used only for approved purposes in the
order specified by EDA award terms and conditions, which provide:

       a. 	 For projects that create long-term rental revenue, i.e., buildings or real property
            constructed or improved for the purpose of renting or leasing space (e.g. building
            sites), the Recipient agrees to use such income generated from the rental or lease of the
            project facility(ies) in the following order of priority:




                                                15
 

U.S. Department of Commerce                                           Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                            October 2008 
 


           (1) Administration, operation, maintenance and repair, of the project facilities for their
           useful life (as determined by EDA) in a manner consistent with good property
           management practice and in accord with established building codes….

           (2) Economic development activities that are authorized for support by EDA,
           provided such activities are within the EDA eligible area.

       b. 	 Prior to the final disbursement of grant funds, the Recipient will develop and furnish to
            EDA for approval, an income reutilization plan that demonstrates that the funds
            generated from the EDA project will be expended for the purposes established above.
            Any changes made to the plan during the useful life of the project must also be
            submitted to EDA for its review and approval.

The grantee needs to develop a system to identify program income generated and expended thus
far from its various projects and to systematically identify and restrict the use of program income
to approved purposes for the remainder of the useful life of the projects.

Grantee Response and OIG Comments

Grantee Response

The grantee concurred with the need to address the program income requirements of its award
and stated that it was “currently separating and tracking revenues on a per-facility basis,
addressing the relative program income generated from [the] expenditures.” The grantee also
responded that submission of a reutilization plan to EDA for review and concurrence was
appropriate and noted that net revenues are restricted to the uses EDA deems appropriate under
FAA rules and must be retained and used to further airport buildings and facilities.

The grantee asserted that program income requirements should be viewed for the Base Re-use
area as one whole unit rather than accounting for each specific building, which the grantee
contends serves no public purpose and would require arduous special fund accounting and which
the grantee contends was not contemplated by EDA. The grantee also expressed reservations
about restricting various income sources for purposes other than supporting the overall on-going
operations of the airport, stating that this may become problematic with respect to the airport’s
ability to comply with FAA and other operating and financial guidelines.

OIG Comments

We appreciate the progress in identifying, tracking, and applying program income asserted by the
grantee as well as the grantee’s concerns regarding the difficulties associated with complying with
this provision and the potential for conflicts with FAA and other operating and financial
guidelines. We encourage the grantee to seek EDA program and legal assistance to address these
issues and timely resolve perceived conflicts between EDA requirements and other guidelines.




                                                16
 

U.S. Department of Commerce                                          Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                           October 2008 
 



Grantee Property Management Needs Improvement

The grantee’s property management system needs improvement to ensure that property acquired
for EDA-funded projects is appropriately valued and applied to the project. Uniform
administrative requirements at 15 CFR Part 24.20(b)(3) and 24.32 stipulate that grantees must
ensure that property acquired with grant funds is adequately safeguarded and used solely for
authorized purposes by the program for which it was acquired and also set forth minimum
requirements for property management and control. Federal cost principles at OMB Circular
A-87, Attachment A, C.1(a), 1(b), 2, and 3 require that costs be reasonable and necessary and be
allocable to the award in accordance with the benefits received by the award. During our review
of the grantee’s claims, we noted that in April 2004 the authority acquired a chiller under EDA
grant no. 07-49-05422. Upon receipt, the chiller was temporarily installed in a building that was
outside the scope of the EDA grant. Nearly 20 months later the grantee relocated the chiller to a
building within the scope of the EDA grant but neglected to credit the grant for the depreciation
accruing while the chiller was on temporary loan or for the costs subsequently incurred to relocate
the chiller to the EDA project building. We questioned $85,690 consisting of (1) $15,740 in
depreciation for the months the chiller was used outside the project and therefore not allocable to
the grant and (2) $69,950 in costs to move and reinstall the chiller as unreasonable and
unnecessary expense.

Grantee Response

The grantee contends that the chiller was relocated with the approval of the former EDA project
manager but agreed to take appropriate steps to ensure more effective communication and
processes in the future to ensure compliance with EDA and other requirements.

Recommendations

At the conclusion of our audit, we conducted an exit conference with grantee management to
present our preliminary findings and recommendations. Grantee management personnel in
general concurred with our findings and recommendations and expressed their intent to use the
information to improve organization policies and procedures and to create others specifically
directed to correcting conditions for the future. Grantee management recognized the need to
institutionalize and memorialize in writing better processes, procedures and controls both for the
good of the organizations’ federal programs and for the organizations themselves as they moved
forward into the next phase of their development. To this end, we recommend that the EDA
Regional Director take the following actions:

   1.	 Disallow questioned costs of $637,082 and recover $573,375 representing the federal
       share of questioned costs. (See page 6 and APPENDIXES F through I.)

   2.	 Ensure that the grantee amends, augments, and implements its procurement and change
       order policy to comply with award terms and conditions including the minimum federal
       procurement standards of 15 CFR Part 24.36 and EDA Requirements for Approved
       Construction Projects. (See page 9.)


                                                17

u.s. Department of Commerce                                           Audit Report STL-18837-9-0001
Office of Inspector General                                                            October 2008




   3.	 Ensure that the grantee develops and implements adequate construction management·
       policies and procedures. (See page 11.)

   4.	 In the event the grantee continues to claim labor and fringe benefits, ensure that it
       develops and implements a time distribution record employing personnel activity reports
       that comply with all requirements ofOMB Circular A-87, AttachmentB, B.l1(h)(5).
       (See page 14.)

     5.	 Require the grantee to provide and adhere to the program income reutilization plan
         required by EDA standard term and condition C.6 for EDA Grant No. 07-49-05304 and
         for each subsequent award as it is completed. Procedures should ensure that any
         prospective change to the reutilization plan is contingent upon EDA review and approval.
         (See page 15.)

     6.. Ensure that the grantee establishes procedures to identify, sequester, and account for
         program income and to prioritize and account for all expenditures from the account. (See
         page 15.)

     7.	 Require the grantee to provide an accounting of all program income earn~d and expended
         to date for completed grants. If expenditures do not comply with the priorities prescribed
         by the standard terms and conditions, require the grantee to reimburse the:.:program­
         related income account accordingly. (See page 15.)

     8.	 Require the grantee to establish a property management policy and procedure that
         (1) ensures that property acquired under the award is used solely for the project,
         (2) ensures that property value is allocated to the grants in accordance with benefits
         received, and (3) incorporates the controls and minimum property management standards
         of 15 CFR Part 24.20(b)(3) and .32. (See page 17.)




 ~         c;e=         -r-hr            /0Itt!(/ C('
Judith J. Gordon                            Date
Assistant Inspector General
   for Audit and Evaluation




                                                   18

U.S. Department of Commerce                                            Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                             October 2008 
 



                        Appendix A: Objectives, Scope, and Methodology

The objectives of the audit were to determine whether (1) costs claimed under the EDA awards
were reasonable, allowable, and allocable to the sponsored project; (2) award objectives were
achieved or in the case of the interim audits, that appropriate progress had been made towards
award objectives; and (3) accounting, procurement, and project management practices and
controls in effect at the time of the grant performance complied with award requirements,
assured efficient grant administration, and resulted in an acceptable final product. The audit
period and type of audit varied by award as shown in Table 3.

Table 3. Audit Period
       Award No.               Audit Period         Percent Complete            Type of Audit
      07-49-05304            9/26/02—9/30/05             100%                       Final
      07-49-05422            9/30/03—6/30/07              97%                      Interim
      07-49-05623            9/23/04—9/30/06              80%                      Interim
      07-49-05672            6/21/05—6/30/07              61%                      Interim

Our audit methodology included review of EDA and grantee award files and financial,
personnel, procurement, and performance records. We also held discussions with EDA, grantee,
consultant, and independent audit personnel; administered questionnaires; conducted selective
transaction testing; applied relevant analytical procedures; and observed claimed performance
and accomplishments.

We conducted fieldwork in the agency’s and authority’s joint San Bernardino office during the
periods of September 17-21, October 15-26, and November 15-16, 2007. Our review was
complicated by (1) the late 2005 departure of the original EDA project engineer and EDA’s
movement and consolidation of official project files from southern California to Seattle,
Washington; (2) the departure of the grantee’s initial project and leasing specialist; (3) problems
locating grantee project files or missing files; and (4) absence of technical certifications that
work was completed in accordance with approved plans and specifications. We discussed our
findings informally with key grantee personnel at intervals during the fieldwork and formally at
an exit conference at grantee offices on November 16, 2007. We also provided additional
detailed information on questioned costs via a phone call to the grantee’s Chief Financial Officer
on July 21, 2008, and reviewed additional documents provided to us on June 25, 2008.

We reviewed pertinent audit reports and available management letters issued by the agency’s and
authority’s external auditor as available for fiscal years ending June 30, 2003, through June 30,
2006, for the authority and for fiscal years ending June 30, 2004, through June 30, 2006, for the
agency. Audits of the authority for the four-fiscal year period were all OMB Circular A-133
single audits, as was the agency’s audit for its fiscal year ending June 30, 2005. The independent
auditor rendered unqualified opinions for the three most recent of the four authority audits.
However, the auditor's opinion for the agency's single audit report for fiscal year 2005 was
qualified. Neither the agency nor the authority qualified as a low risk auditee, as defined by
OMB Circular A-133, during our audit period. Department of Commerce funding was audited as
a major program and no costs were questioned. Performance reporting was an issue for the
authority in FY 2004, but was not reported subsequently. We confirmed the quality of the
independent auditor’s work by a review of the firm’s peer reviews for 2002 and 2005 (the next


                                                19
 

U.S. Department of Commerce                                          Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                           October 2008 
 


peer review is not due until May 31, 2009). We adjusted the scope of our work to build upon the
results of the independent audits. We augmented the independent auditor's work to satisfy our
audit objectives by testing project transactions to evaluate internal controls and compliance with
laws and regulations relevant to our audit objectives and the EDA awards. We also selectively
confirmed claimed accomplishments by physical observation.

Our audit included an evaluation of the grantee’s internal controls and compliance with laws and
regulations limited to award provisions relative to our audit objectives, specifically those
provisions pertaining to performance reporting, financial management and reporting,
procurement, construction management, program-related income, and property management. We
reviewed compliance with internal control requirements and laws and regulations as they applied
to costs claimed and award performance. Key criteria for the audit included the EDA grant
applications and assurances, the awards and their respective special terms and conditions, as well
as:

   •	   13 CFR Chapter III, Economic Development Administration
   •	   15 CFR Part 24, Uniform Administrative Requirements for Grants and Cooperative
        Agreements to State and Local Governments;
   •	   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments
   •	   OMB Circular A-133, Audits of States, Local Governments, and Non-Profit 
 

        Organizations 
 

   •	   Department of Commerce Economic Development Administration Standard Terms and
        Conditions Title II Public Works and Development Facilities and Economic Adjustment
        Construction Components, dated March 1999
   •	   EDA’s Requirements for Approved Construction Projects, April 2000 edition

The grantee’s computer-generated data was sufficiently reliable, given the objectives of the audit
and the intended use of the data. The grantee used computer-based accounting systems to track
and report the financial results of the project. We reviewed the agency’s and authority’s
independent audits and available management letters applicable to the audit period and
determined that there were no uncorrected deficiencies reported for the automated accounting
system for fiscal years ended June 30, 2003, through June 30, 2006. We used computer-
generated reports, but we did not solely rely on them as the basis for our audit conclusions. We
relied, instead, on source records for our tests and reviews of program results and compliance.
We traced financial claims to the automated accounting systems and to source documents. We
noted no deficiencies other than those detailed in the body of this report.

The audit was conducted under the authority of the Inspector General Act of 1978, as amended,
and Department Organization Order 10-13, dated August 31, 2006. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




                                                20
 

U.S. Department of Commerce                                                                      Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                                       October 2008 
 



                                                       APPENDIX B 
 


                                 Recipient Response to Draft Audit Report 





                                     san Bernardino International Airport


                                                                                                           V/.1 f"f"DM
                                                                                                        8M3 99<1' 2'89
                                                              September 14.Z008
           Mr, OO"OJ Shcprwd
           Rel/iOnallnope,1O< G<n<roJ ro< flod.,
           OfT"", of 1",,,,,,,Of G<nrnol
           U.S. o.po~men' of Commerc<
           911 So,or.J A~"". Room )G62
           _111<, WA 9S17~

                   HE:      DRAVf AUDIT REPORT DATED AUGUST IS, 200S
                            IU:I'ORT NUMIlf.R: STlA~8J1.s·0001
                            AWARD NOS: 01"'9-MJ1).l,~n,0S62J,."" M.11

           n.",M'.Sb<ppud'

                    The lolOll<i V.IIO)' Do<'elopmenL flgm;y (JVDi\l and San lkm<Wit'lO 1".._ion.1
           Ai""", A""""'ilf (SOIAA) would like 10 tlwlk)'OO lor ,1>0 opporttIrlity to rc.icw and comment
           on II>< Dr.ft AlIdi' Report. as provide<! bj.- )'OOr oW"", .. ~ "'00.] Alii"" ll, 200II, C'Aodi'
           Reportj, Th< IVDA..-.d SBiM v<ry n>U<h 'PI',cci.., 'ho """,tive ",r"io<osh;p "" hove ohare~
           wi'h ,be U.~, D<pu1"""" of Cornm<= ..OJ om", of Economi' Mj.. tII1<n' o""r til< "'.... '"
           ""n .. )'>ur ~t.ur;n 'ompl"'.g th.. a<oes<m<m. Siocc ,tI< """Y 199Q·.. 'hi, P"'ll\01llhip'"
           clfo<:luatod the I",.. formation oftl>e fmn<1 NOI1on Air Force llas< i"l0 • 1M vi~ itl<lOiSlriai pOri
           ODd emervir.g ""mmerei.1 flirport, ""'ali~ ,hen,.,"" of ""'" JOO> in 1110 r<gio<I.

                    In "'.,,, Y'''', thi, Io~·"ondill£ .. Iotio","ip      no.,.I",in.ted in 'ho impl,m,n.._ of
           odJitk.". ~ ""i",,i «ooom;" "",Iopm'nt proje<!' foeilitatOO by =-!IIi. r,do....ly ._i>ted
           funds, .utOOriu.l by and ,~ ,II< United State. D<parIm<Il' of D<fense, orr"", of Economic
           AdJ"""''''''' and odmini>tt.-ed by the U.S. IJeportmcnl of QJrnmoroc. f.<onomie 1l<\«loj'llr>Oll1
           Admi","""iOl (fDA). Thi. elf,"'i"" ~ip of EVil. JVOII...... SOMA .... l>eeD
           i"'l_"a1 in """in..lIy ,,~;",il1ll ,..d "'~ve';l1lll"oje"c~>n<I JroVa,.,"><d ",,,,II>                bo"'"
                                                                                                                on
           ,110 lepl'l;'c intc", ~f tl>< ",.pecti", furJ<I>. while ... rvina to otI"""" ,he 00'" objeCli,.. of 'i><
           ~OA ",d IVOA io " . .ti"l! "'" "'ltIInOt1l! jobs in ,hi. ocooomieolly clI.lk"led Joe.1 ""'" .. an<!
           <U<>II<I<Ill1o former Nonoo Air force flaIe, ~Jticll. ~'ilh the help of the.. "ilical proeraou, ;, row
           cOlCIJini"" lhe Sao IJenwdino Itllem.>tional AilJ'O'l.

                  T""", chlkol fur>.J. ""'. ""0 ....pl{»'ed, purw"'l to leii'I"I", i"leo'. "" ,)Oly to
           r<baI:nli'''e <>tl-l;O;ni fo""'" N<Ir1"" II;, For« B... ;nfe...'''''''''", i but.1so '" .llow '110
           EDA. IVDA, ond lhc 111'1"'" to 0Cvc1"" onoI build. job I=c ..... 0 ",won                 _     t" "'pporI ,he
           ~PO""""" ofll1o Son     Fl<mordino Int<rno'ioooI AilpOrt, n<m ,,,.,; into LI>< f"'IIre,




                 ..... . -
                                         ---_._-_.-
                                              " ..... _ " " _ " . _ _.4100' .... _                          .....' ..

          • PRfil<CT "" , . . ......." 'iAlllY ""'"'-""",.,- AG(""", ..., .... """""""" 10'.....'''''''''- -.;JO'   AtJ'''''''''"

                                                                 21
 

U.S. Department of Commerce                                                                  Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                                   October 2008 
 




                                                                                           Mr. David SJ>erpard
                                                                           R.2ioMllrnpc<..... Gcru:.-.l for A,001;''
                                                                                    Off1« or lrnpoc>o< o.r.:r.I
                                                                                 U.S.lkpo<.m.,,, ofC<>mm<",.
                                                                                            Sepl<mber 2-1, 2001
                                                                                                       P¥lofl


                 w. "'" "'I","i"1I [h.tt J'O" ,«00';<1<, [he fmdinp;,,)'OO, repo<t bollC<l on ml, odd"",,,,"
           Inf""",';'.. on<! ,... mo>t, ;f no! .11, of ,I>< .",.... b< on"",cd .. <I,gibl<.

                  Pleo<o ""'. 'hOI OveT $13 "'illi"" 10         Gra",
                                                              !l.n><I> were ;"volved In)'Ow .... iew "ltb
           _,im."ly four pertO,,, (4%) bcill.ll qUe>liontd Ol thi, lime. W. . .", '""'erely Iriod to
           .""",Iy wi'h all of)'OW reqoi... me.., and 1IOOi,h1 appro".1 "he"""" u"u,,,,,1 rnw"",iom
           <>«un«l prior '" makint ,he ex~it"""', W.            "'l"""
                                                                  ""o",ide,"ion.

                   IVDA.,1<I SDIAA swr "PJ"'<i". 'loi, Of'PD~""'Y onol Ita"" ",view«l. in <l<lail, ,I"
           Aodi' Repoo. The followiO<l         i,.,unlnlOly or our Itti'lol ""mmen" ond nnd:np, "",kll "'"
           <l<li"..,«I ond OItJlO1ated ;n "f",,"co .. ,II< AoOit Report d"".m..U,

           A      o,pljo... d CoM,;

                    T'!Ie lVOA .oJ SDIAA 1><1i<:""tlwl tOo _"io""; "",,;, 'ho A••M Report _ io fo<~
           .no,,'...,I. unde' OMB Circulal A·87, M""hm<ll' 1l.l1.h(4,~) rOf "'" follo";n~""""",, Thi'
           oPl'li"" 10 (Jr.nt r-:"ml>en U7_19·OSJO.l; (r7...jY·OI422, 07.49-0~b2J; 074905<>T.! in <he omounl 0(
           S249.0!l3 (see _       10. item 0 of YOU' "'port):

                  1.      Prior to ,I>; .rrm....1 oruI te;mbur..".."" .,fthe r"" poy     '''1'''''',
                                                                                                 the EDA Proj«<
                          M"'"ll"" "Iled <:>Of """""",,"' .ed ..... ~ ro. .. <ert; fie>!i"" I..'.... tpprol'<.'d ll'Id
                          .ivoed OJ 0 t<lIpon~U. official or ,he SIllA!' m the IVO.... to bock up our forc.
                          labor diSlrii>uli"" 1<p""      ""t ...,
                                                                p""'"""ly s"bmlue~ "" 0\0' p.y         1'«1"'"
                          I" 0 I""", dalod March Il, 2003. oddres:><d .. ~r.... , I.<:or»rd Smith. ReJjMal
                                                                                                              1», 01.

                          o;""W. of 11", u.s. lIef*"fI<!\t of Commer",. F.ro.ami< Deve!O]llOCnl
                          A~mi" .....",," (EO"'), we i.d:>Jed Ihc ""I"'''lod             """in""".,    I.,..... Dy
                          wmpl<t;"g ,he '<'lui"" =!;focofun, it ,,'" bo'h <he COA'. l'1'oj<>ct M,"'l" ,0<1
                          SBIIIMVDA'. on<k,_i"ll "'" to;, ",rtific.t'" w., '" appru.od onol
                          o«<pUIbl< ,y""", b-         '""poll
                                                            of ..Ion.. 0I'I<l ~-age~ This Is [he .."" ,y".,m """
                          was ..,.,ro,...])'<ISn <:artier by the «>gl"ium ...."", •• he 'itn<. U.S.llep<ut""''''
                          or T''''poI101ion, Federal A.""io" Admi"i."..ion (FAA), Hi,."mm""",
                          "I'f'II'Oved MId rooc"",able 'Y""m in 001" 'l:-"""Y for ~1lB. nmely rero"h """'
                          "",io";noo wh"",i. "f"'<if," job ""'"' wet< ""'"""ioed _~ 00 .,,,,,,,1. t<poI1.d
                          ,;...., "".,..w. (Se. Attaehm.nl 1.)
                  2.      The U,S, Deparlm,,,' of COIltIUeree Economk De""lop"","1 Adm;""",;"
                          'l'f'I"O""d .II<!
                                     " " ; m _ OUr Fit" pay reqoe;t for A''''''d ~. U7...j'!-013ll4 ""
                          Deoonber l~. 2003. in the omOUlll of '"4,S19,OO ir.<li<o>li"i on """"1""",0 oft""
                          "",hod, "" "Cte o'i~ We bel;""" Uw """ngitli 'he <rilelio;, both 0""1...,,.
                          .n<!   unf.;r,~   8"''"   ~p'oc1o,.




                                                                22
 

U.S. Department of Commerce                                                                   Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                                    October 2008 
 




                                                                                                  Nr. o.vid Sh'pl"n:I
                                                                               R<~ionalln<p«tot G<n<r.ol    fot Aom,.
                                                                                         Off,,,,, "fl""l"""'" ~ I
                                                                                      U.S. D<pv1n""" of Comm<r<:<
                                                                                                  S<p:cmbcr 2~. 2008
                                                                                                          r.g.Jof8



                   J,      The r<""'" ,hot our 'ptom ..... "",,,plod by Ill< fAA i. I>=lu"" SBIAA aid
                           IVIlA <10. m fO<1. have 0 .y.<etTI., r<quir<d. undo:r >o:<I'on OMIl Circular A·SJ,
                           Ailodmenl B.ll(h). pr<>'Ii'ion (5)(0), '11"" ~hoe1, witt> ..,.oirr< joI> lime
                           0110"";0" were nuiD1oi..d 00. timelr Dosi•.

                   4       All ..-oploJ"X-'S' I>oon "'" ""oour'lled ror. "',. doily bti>'>, ,m,ugh.", eo....,. of
                           San lletnolnliO<>-<>dn>in;,,,. .d 1'")">11 ')"'lan. Con'<mp<>flUl«><l>Jy. on oddi,ion.1
                           l.ou u"'••hox, .,..;       ' ' ' ' 'Of)'
                                                                  d;"ribUlioo _1<>1>«, woo COOlpl<l«l, This
                           """""1>«1 wos ';W'"'J off Dr tile <mploy<:o .. ,he 'im" of .ubmi",ioo ond
                           OlllOOnv:d .. paT! or <he ,im. sI>«:t OlIbmi..i... A .._               lime all"""",,,
                           ""rb!le<t MtS oompletod btcau<e the O:>\olty of S•• Il<m.... i"" poyr<>11 ~'stem
                           doe. "'" provid<- fot" jOO ''''Ii~. Out "ll""'i" """"'<l with 'h, Counly of S..
                           llerMnli.., h.1I poyroll "",,,;_ bul lhc "",,,,,I eo"ill£ to jobs.,,,,, be do..
                           i"'",,,oll, u" "'"..-r"''''' 'i"'" ""'"<S,  We ",oor4<d ooly job.«:lated Ii"", on ,t.;",
                           _,he<l.       I>uI re<<>ttIed lhe "".1 1Joo", for olclt day 00 II", ><1"'0" COOI1Iy
                           timallocl>. On nwmrowr 0«. .;""'. oral co,wersatio", !Old vi'i'" '" tho e"",,1y
                           of San Ilenwdino """" m.>de 10 ..., if 11Ic)- could "f'lote/modify        'hoi'
                                                                                                        ')'S1eIn ""
                           _ «><lId eli",';"... ow 1.00. di."ih",ion "'P"'. A. of kMlay. ,he C""'I)' <)'>lorn
                           i, "HI u""ble to petfu-m tiD, ..... rm 0'" "&""i,,,.

                   j.     The dire<' I""'" 0Il.1> .... reol 0Il<!.", 'uMlOnliOl<d. While W< "P!"<iOlO lhe
                          inlerf",. OIl<! inplll r""" l"'" ollie<,,, "",Ii .. EDA S,.ff.ner ,he>< .~ ... to
                          Ji>oll{)w Ill<"" expcndilW-OS <nli",ly. based 00 ,he """, inlplomont<d EVA
                          1'1""'='" wouJd. in   DOT   eotim"ion, _ ' " • hat:<h l"""11)'

                The rVDA on<! SBlAA believe uw ,It< ~.<."ion<J ""''' in lit< Audi' R""""..-.:, in f",,~
           ,Uowabl, fur ,he following ",."',,, roc OrO.1 f'"",to:r 07--49-0Sl()ol, OMB e"""I... 11·87,
           AltU""enl A, <;.Ij .no.! IS CHI. l"'''' 24.2O(bX6) and 36(1). in I" .roo...1 of $14~.575 (See
           1'0<><11, foo'noI< J.):

                          Tho IVDA IJ<>or,j 'Pf"'''od Ihi. work ... "'~u11lf ..,...Mod ruMi, m«<ing ""
                          A"lI"" 25. 2004. (S<e A11tIClImon' 1,) The EDA !'roi«' M~ .bo 'Pf"O,od
                          lhi. ohanve onJcr. (So< lluaohmeIt' J.) 1l<:.«.t.!'wv<fIctl<r.t 11""0;;.1<. Inc,."
                          C"""",,,tion I<tano&"". ",•..- 'his (lfOI'OOOd ohllW' ....Jer on<l ",,"firmed ,he
                          prop'...",I,l<d   OIl"""""'" [{If wotk .. pet pi""..."h",,,ifr<a'iolU, The Cily of
                          Son BernonJi.., ~i", PqraIlmont i'","",«1 and oppro",d 'h< .ystcm " ooof'llured
                          oil<! o"""",,,'ed. EDA ,",,"'wed...J        "f'I"'O"'" "'......
                                                                                 of flO1ds for ,hi. i'"",




                                                                 23
 

U.S. Department of Commerce                                                                     Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                                      October 2008 
 




                                                                                               M,. o.vid Sh<w.rd
                                                                               R<8""",110'l""''"' G<ncr,1 fur Audi"
                                                                                       om«.,1 1 . _ Generol
                                                                                    U.S. Ikpo""'cn' ofCo,..,1tl«
                                                                                                    Seplemb<l 14. lOOI
                                                                                                           P~40f3



                  2        Tho U.s. DeJ-t"""" of Com""""" Eeonomio Do",lol""<"" A<Imini~ioo
                           ",vi<_<I, opprovcd ond ",iolb<iI>e<l on O<tob<r 20. 2000. "'" J'lIy 1¢Ol"':S' fot
                           A-ro No, 07"9.(Ij)000 on in th<: omouot of$149.Hl,OO.

                   The IVDA ..... SBlAA belie.. t ...., 'ho lll""!ior<:d<o'U i' ,he Audil Report m, in f",,~
           .11oW;l!>le for ,!>e follo";"1     rea<oo. for fj""t N""""" n?"9_05421 OMI) 0",,,1.. A·81
           A,... 1Im<nI A,C.1 .• ,o,o .no! i ,roJ 1$ CI'R 2'.36(1), in 'I>e ''''''''''' of $144,000 (So< l"'~ 23,
           f""""".Jo)'

                      I.   l1atIp" No, 7~J is. ~J().OOO!iqLWO fOOl m"Ki.(lIO'p",,", ["",-bol,            """"Y "......n
                           .-.i"":1<1<0 fa<ilily.      'Ihi, fore """,,,,,sinn _     deall wilh impro"","<1ItS to an
                           imecrared ..,....... ,"'Ki<h orrecl<d all foo, h<oWI' boy. Whit< improV<DlCIlt> "'0'"
                           rompl<"'d '" Hong..- Iloy 1'0' 'f>ree ond IQ.., oddi'i"".1 work ..,.. roquirod i.
                           orJ<r to meet .pplioaol< lif. ond ~ro ....«y rod< ""lui",m",".. EluIl4 P,o""""",
                           &: A,,,od.,,, I""" .. COIl"'",'iOJI ~h'''i:er, '<v"'-d this propooed "MIlC" 001",
                           "",,1 prio' to oppro..l ""; implemmtotioo, IilId IIao CoofLtme<l ,ho 'ompletioo of
                           """t punLWl' to pla:l> ond >peclnat""". JIeeo.... 'hi> fir< '''l'PI'<Sllio, S}'>l<m
                           ..... I"lei'.. ed tf'trouu/louloU fOIl! boys in Honp, No, 763,      U" c~e OIl1<, """"
                           fOf th< Arjooou. Film F"""'ing Foam (AFFF) ..~, roquir<;<l i" orde, '0 ~ify
                           tho ron" oompl<t«i ,y"'m. All worI< w .. per(orrn«l ..... "",.-.pI.....         1"""'"'' '0
                           _1",obI<      cook «qu,,,,,,,,,,'"     ...J i",p«t<>J ..... 'Pl"0ved ,r" City of s..
                           ll<m.rdhlO ,ire M.BboI, The IVDA Eloard opprovod this item                     0' • ..
                                                                                                             ,..~,l
                           _oleO publ'c meeti~ "" 1Je<embet 22. 2004. (sec AlI<IChmenl4,)

                  2        ne    U.S. TJqIo.","<"t ~f C,MDm<r¢< Econ<>mic 0<"1""",,,", A<!mjni"",tion
                           ""'i<.... J, Of>pro.-ed..-.l mml>u.-«d our l"'Y ,..q",," f", Aword No. O'''''9·0SOO21
                           on AUlwt 17, 2(l()S, in ,Ii< """',," ofSlol4,(l()O.OO, We 1><11".. thot AC,,,,I<•
                           .00,1. be obk to ,dy 01' ,I""" Il(lp"'va".

                    '11Ic IVDA ..... SlllAh boJie"" tM the qLJ<"iOl>ed com i, tile Audil Report ore. in fllC~
           .1I0...hle for tbe (ollo"l~ ,.."""'.        rot
                                                      o?-49-<lsoo2l 0t.18 Ci",uI... A_X? A'tadorn<'" A, Col"
           lh, 2 IIIId J. in the .."""'" of$85.690 (Se< I'>i< 24, foot""'" Jc "f y"" "",,",l;

                  I.       In tlti. i"...,,,,,, on   .i, c<><><!i,i,-"",Iohilk, uni' (IIV hC "'I"ipm<ntj i. 'l""'iooctL
                           The i.... i. tlult ,lie CWIer "'ao ,"",..-.I from""" buildi,C ,,, mother building.
                            n.e chit.". rem>ins in ...... ic<. which unit bu 1leoJ, cOIIOtar'-ly m"u,,,iro:<! in
                           """"c si"oo tl' in>l"lIotioll " tho "".",in;: <Ape_ of 'ile IV!)A. While it "'..
                           oh~i""ly i.M,11ed 011 • "'ildinc (Iloildi"~ No. 48, pu"''''''' '0 ED'" P",;,<I
                           M""'llO' oppro. . I)....hie'" gj~ til< EDA ..-.J Icj;jiliti.., intent fur "'" of t _
                           fund:!. """ ",nd<r<;<I .. , bter d". . . i"l<,,"hk, .,!he '''''''''' 'hmol c10><d i"




                                                                  24
 

U.S. Department of Commerce                                                             Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                              October 2008 
 




                                                                                          Mr, David Sheppard
                                                                       R.gionol 1"'1","0' 0......1for Audits
                                                                                 Off,,,. of htsp<du' e",."...
                                                                             U,S.1.>q>orun<n1 ofComm<r<e
                                                                                         Sepemb<T 20, WOll
                                                                                                   Pagd ofl


                         busioou. In lit ell"'" '"  ,,,,,f,,,,,,
                                                               to ..,.,.icahl. EDA !!W" =!u;r<TItcnIa, ,. "",1J
                                                                               ,I"".:
                         .. ,"" oril;,••I1<~;,I";"" on<! J:IlA- in".. fur "'" of      fund~ ,I>< lVDA "",gilt
                         '" 'f<..<Ir<1ai" job:! M an lodlm:, beoofil of lhi. PfOj«1 In","m,oot A, ''''h, ,00
                         ,'i1Ie, ".,   ,docote<l '0 lit &It""""" me, pur1IlI." '0 EDA. revi<w. to Iooner
                         Nonoo Ai, Po,"" Bo><, BulldlllJl No. 130, "'hich allowed ,he rnA on.! IVDA to
                         """"'c".to     0.<1 SO ...W jol« ""IV In Buildi"i !'In. 1)0 Th. "'1"""lon nf'1>o
                         Cbill<t (IIV AC 'Gulpm.nl) IVtO '1'1"""""1 b)' the 'h<n EllA I'roi"" M _ "
                         ",", ';mo

                  :z.    The U.S Do:ponmenl of Comm<"" &:ooomi< 0<",101''''<111 Admml"'""OIl
                         "",1<Wed, ~ MId "Irnbm>ed om f»Y "'I"'" for Award No. 01-49~422
                         "" Docembo.r I, 20(l(>. In the ""'\1J"ofUl.690.00.

                    The IVDA ,col SIIIAA l><i;<V, '"" 'ho 'l"""lion,d <0.... ;1' Ih< Audit R""""",,, io f...,
           ,1I0Wl'l01< for ,I>< f~IIo";"II "'"""'" fur 0,... Nomb<r 07-49--05012, No OMB ",~"I"i""
           ~<d. in 'h, """,unt of "I,140. IS«: P"I' 14, fOOt""'c 3d of your "'porl.):


                  I.     Tho U. S. I);,portrnon, of Coo"".", EOOOlCmic 1);,,,,lop,,,,,,,t M ..ll'li .... tio"
                         .J"I'I'O"C'I .....
                                          t<'imburl..J .... M ""I""" for Aword Nc>. (17-4'1--01412 0..
                         J",,",,'Y 2a, 2001, ;" lI,. """""" of $IS,140.oo. 10 ,h;. ;n"mcc, 'h, IVIlA
                         foll<:>W<d 'PP'OP'io«: gcm,oily ""ccptoble proje<:l m....ga"en' l'f'X"'>e>, .od
                         "j,1I< Ihe IVDA 'hould ..'" obtaioo:d EDA pe""l,oion tQ ,hifl from ""e 'o>::gory
                         of proje<t <XI""'" l<> ."",her, ""~b<;I",,, ,hi. i....alid COIIStfUl:Iion rosI ~Iven
                         lit< """mil proj"'t~, and tho Iae'!ha' tho work " •• co"'pl,te~           PI"""'"  10
                         th< proje<t ""ope. ond .. weh. the ",imbur,."tI<I'lt "'" thertnfter ........ by ED"
                         for 'hi>   "ertIof _         In til< rut""" th< IVIlA ";11 >dOe.< to any ,ad .11
                         oppl;a,b'e ",~ui""""n" in "'I'P"~ of"" ""11",,,;"0 ""onom;"       ",,,,lop,,,", gooI,
                         and obje<tl",. of 00l~ 'he EDA on.! IVDA.

                         In thi•• """;on, «min co," ...., ~" .. ion<d hecou>< In t~l. p.>rtW.. SrorIl, 11>0
                         budget for th< A",l>ilec'=1 EnW"e<tlrl£ k". I:>OO~" .... e>:««l<d. w, 'od
                         $1n.171 In. «>nll"l:""" bu¥' 1in<;1<m whO<~..-...lJ on<! >houIJ hove bee.
                         mo.w '0 not ¢KCeOO ..... A,,,hiteclunllr. F.ngjneering hu<Ij;rt I;", ltom.

           B      G","'" rrnoo .......,.' foil".. lid rCl<lim.nd M",onb K<t<ntiop foli'i.. i'ttd
                  100nrovsmtnl, W. opptOC;1I< )'OU' ....;1 ...If. "",0,"""nda1;0.. refOldlo& ImprovinA




                                                             25
 

U.S. Department of Commerce                                                                                                                                                    Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                                                                                                                     October 2008 
 





                                                                                                                                                                    a ,- z

                                                                                                                                                                                           " i ".--"!P
                                                                                                                                                                                                                           ~-
                                                                                                                                                                                                      i ,",
                                                                                                                                                                                  Mr. David Sheppard




                                                                                                                                                                                                              ~,.if

                                                                                                                                                                                                'I "t
                                                                                                                                                                  ~ " >:' ~
                                                                                                                                                                                                        !
                                                                                                                                              f
                                                                                                                                              Regional 11IIp«:lOr Gcnc<al for Audill




                                                                                                                                                         "c g~.


                                                                                                                                                                                              , .....
                                                                                                                                                             Office. of InspWOl General




                                                                                                                                                                                       ;;:,r
                                                                                                                                                                t-f·
                                                                                                                                                                                                 i' ~
                                                                                                                                                          U.S. Ikpartmall ofCommcn:c
                                                                                                                                                                                   &ptembtr 2<1, 200lI
                                                                                                                                                                                                       Page 6 ors
                ,




                                                                                                                                                                                  ,
                                                                  ~-, !
                                                                              .. 1,
                            Iii 'If
                                                     ~
                                                     Ma~emc:nt                                                                                                                                   ~uio:mcnlS,
                   ,! - l- '
                    OIMr Plojca                                                     procedures plUSU:ul1 III CW'Ttlll HOA




                                                                                                                                                                                       >
                                                                                    !
                                                                                                                , ,,!
                                                                                                                                                              I,
                                  ~




                                                                                                                                                          •
                                                                              !!.i- •




                                                                                                                                                                                    0
                    specifICally:
                            [


                                   ,.r
                      2




                                                                              U:
                    OIl' rttOI\1s I'tteRtion polici~ ITe in ctfcct, but Jhould be cxp;!r'ldM I\l1d limhcrcodified




                                                                                                                                                    '" :: t~


                                                                                                                                                                                                                    gj~
                                                                                                                                                                                            ,~
                                                                                                                                                          ~l

                                                                                                                                                                                         -.
                               if




                                                                                                                                                                                  -"
                                                     ~-




                                                                                                                              ,-



                                                                                                                                                                                  !'
                             •=.
                                           'll <I




                                                                                                                                                                                           ,-                o ..
                    in onkr k> specifically to USlln' that documentation i~ plOCC$SCd pursWUltto currtnt EDA
                    ~ ;S'




                                                                                                                              ,-
                                                    ~,




                                                                                                                                                                                           "
                                                                                       L
                    rrquirement5.
                                           ~




                                                                                                                                                                                                             ~! 1
           c.
             ,




                                                                                                                                                                                                        P'~[ ,
        l'rn>
                                                                             r>z

                   ennice NWs Cgn.tOlSljnp I'oJallfuIllfnt Cool.ol" 1'(llIC"i~ .nd "ro.. I'4......, While




                                                                                                                                                                                                                            ."
                                                                        ~ni::r!..




                                                                                                                          I"~ [~.?
                                                                                                                                   .. ",~g~




                                                                                                                                                                                .
                                                                                                                                                         i.




                                                                                                                                                                                               i!:.,-
                                                                                                             "".
                                                                                                                                              3 •
                                                                             ""§.
                   the [YDA I.Iocs ha~ and adminiSlct:! coostrue:lilm mlJllgement conlrOls and proccdlnS,
                                                                        ~B-U'
                            l~BO-'&~~ ~ ~ ~if~ftir~ • ';~'E ~• a'a~-~ir



                                                                          . 1~;·




                                                                                                                                                 "~ !
                                                                                                                                                                               :l1t ;l-,a
                            d




                                                                                                                                                                                       ... ~
                                                                                                               g
                                                                          ,g;\i 11




                                                                                                                                                'i'"
                                                          . , , "1-
                                                                                                                                                                                      ir' ..
                                                                                                                                                 .g -''ll
                                             ~


                                                  H ;,"'~ ~ ~ o f~ i. , Hl~"

                                                                               ~


                                                                                                 "a"~


                                                                                                                                               ~::I _ ~
                                                                                                           ~.8 ~ ~
                   these protocols should be cxpa.'lIled aIld furtbel eodilic:d to spteifielUy as~..n: that




                                                                                                                                        ~ ~~


                                                                                                                                              - ;-:

                                                                                                                                                                                                        ,<
                   OOculll('nlation it proctUl:d pU'Sl.lllllt II) cucrent (;DA I'tquimnmt:l. This work includes




                                                                                                                                                                                         _,~'
                                                                        :"":




                                                                                               ~;> B
                                             E.".~




                                                                                                                                                                                                        !:.~
                                                                        "
        ~l




                   Jll update with respect 10 CUlT"CI'lt ElM n:quirenlt'Oll for lIela:tion of cemin profcMillnal
                                                                      : ~lI"
                                                                      • g. ~




                                                                                                                                                     ~



                                                                                                                                                                               o
                   M'TViCII1I. including COlUt<U::lion =nagon.




                                                                                                                                                                                H    :a
           ~




           D,      Gnnlee fjnanrisl MlDlIgem .. nl S)ltC"m DOf"I Not l\1«t MlntmUfII ytdCnll


                                                                                                                                                  a
                                                                                                                                                              :::
                                                                                                                                                                                 j!:
                                                                                                       '"


                                                                                                                    ~. e
                                                                    , -~ ~
                                                                              -o ,_ -~
                                                                "




                                                                                                                    >", ;
                                 ,-< , -Ii;

                                                                   ~




                                                                                                                                    t~r:rl ,; .:q



                                                                                                                                                                                                  ~- ~,
                                        HI


                   StlndUds: We belie'ic thaJ IVDA curr<nlly <Xlml'litS With thiS re<luirc:mmt, in th.t_

                                                                                                                                                     ~~
                                                                                                                                                               ~




                                                                                                                                                                                                             i~
                                                                                                                                   ,!
                            i-[1~1~ ~!" ~d~ n .. ~~~ [ • ~p


                                                                                                     g~




                                                                                                                                                              ~2
                   have llI'IlpPnlVed .yilem ~rluanl III EVA and FAA lIuiddinc:s. (Sec diiIClISSi(ll! nboUl


                                                                                                                                                              6'
                                                                 ~




                   time rcpOI1ini- aOOvc.)
                                                                              -
           "




           E.
                                                                                                ~-~l"'l~ €i"~~"" ~:~n ~~.., :!:,



                                                                                                                                                              -
                                                                                                                                                                     ~.
                   Crantee N"d. 10 J",lltua Control. Suffi.. lf"t In ComnlY ...ilh I'",<'ram Inen",..
                                                              ~




                                                                                                                                   ·
                                                                                                                                                    -0 III ;
                                                            a




                                                                                                                                                                                                    I~Ba.is~'
                                                                                                                                                                                                                     ~,,&
                                ::~~~~;!
                        •• '0 •'pH!>
                            "-i~ "~;r~'i~~ o::a;-:r all _




                                                                                                                                                                                                   ~E_ ~c.
                    R'yllifule"u: We believe thll 0'" Pr~ Int:Om"" Requln:metJl!l should be: viewed
                                                                                                                               :;'';'l!iOf
                                                                             ~~~=""-~~




                                                                                                                                                                !az~~~-i
                                                                                                                                                                                                        :M~~
                                                                                                                                                         _.   if~!,"~
                               ~'il"1



                                                                                       ~l8.i: ;-~ ~

                                                                                                                              ~1~~;~1


                                                                                                                                                                   ~
                                                                                                                                                                  ~i if~1j
                                                                                  fi,i! -
                            i~il--flflf~ ttJts.~'




                                                                                                                                                    n




                                                                                                                                                                                                                    l·~·f
                                                                                                                                 g~-




                   fill' OIl! Base Re'lB!l area as one whole Wil of tkvdopmc:n1. All income from the
                                                                                                                                     ;.,.~




                   f~ilities 8r'e used IOkly to mainlllin tbe imf'r(J....,.j bIIildingt lU\dthe Ai,port. Separate
                                                                                                                                    fq'"

                                                                                                                                                                                                  "'!
                                                                                                                                                                         &




                   llCCoontinQ: for each !'Pecif'" b"ildinjl 51:"'1:5 no public purpo~e llIld \W)uld require ardUO\l3
                                    if~~r
                              i ~a~fi"<~a~_!. g" II




                                                                                                                                                    l-~



                   ~po:'ciat furld accounting not. in our opinion, contemplaled by the EDA. Net reYeI1ue. D~
                                                                                                                                                                   ~




                   r<:;fI";ctc<!to tho u~ you <Jc,;,m apJlroprinle WlIieT FA.... rulelllnd mU!ll ~ay on .00 be used
                                                                              ..,




                   to r"'~cllhc AilJlOO buildinv Ind facilhies.
                                                                                                                                                              ;-lg.~
                 en, '-r<'
                            p'.! s,] ~J1! :t~" ~_




                  Giwn the legillatiw: in~nt lbr the implement.lion .1ll1 U~ of t!lese funds, ld well at the
                                                                                                                                                                                    ""~:~ .~;~~f~

                                                                                                                                                                                                                      i'
                                                                                    -onc.-!f
                                                                            i"",~'g:'o'il~""g'h'

                                                                                                                          ~~~' r!I;-fl~!
                                                                                                                                                     ~-. ~ i>- ~

                                                                                                                                                                   ~i"1 ~ 8;o;,P'~ ~'?
                                                                                                                                                                                   ~~~l?t~f ~-~I

                                                                                                                                                                                                    1!;Q~i;lr~.!1
                                                                                           -

                                                                                                            n~"~t~~ p_f
                                                                                                                         ]O'g




                                                                                                                                                                                                                    il-
                      /ll,n



                                                                                                           :~n!frii~if~i




                                                                                                                                                                                                                    :,..
                                    .~~fa5~q~-.j.




                                                                                                                                                    l



                                                                                                                                                                                                  0-
                                                                                                                                      .



                  oollel:tJ~e economiC"- development and job aulio" 20l1b and ol>jecti~o?$ (If lhc I'J)A and
                                                                                                                                                              1-
                                                                                                                                                    Ilt1t1:"ri
                                                                                                                                                    w_
                                if~




                   IVDA. l~ IOtt""'ful impte """'tati,," of these JIfOjcc:t5 lt8$ .uax:o;-dod in advancing the
                                                                                                                                                                                             .

                  c<lmpn'~"" rde~""OfIl..':r't of tile formel NOlIo" Air Fon::e BOlle frum an
                                                                             ""~~~"""'<-




                                                                                                                                                                                                                      ".g,,iil=-~
                                                                                                                                                                   -.f-~-~~~




                                                                                                                                                                                                     O'ifl s-~_~_,.
                                ~




                  ccon<>rnico.lly dc~l.Ilotcd ""d lICVcrdy bli,hrcd arel in and around the IOrmer Norton Air
                                                                                                           -<I<1'i <l.-~
                                                                                                                                               "~~
                "'"'1"




                                                                                                                                                                                   1""-'


                   Fmw l\u$c:, whim. wilh lbe tlclp o(the.le criliCliI progr.uns, I.s nowemtfiing ItS .lhriving
                                                                                                                                                                                                             ~~.
                                                                                                                                                              ~g
                                ~~'




                  ~ornmm:iat!industrilll park mllithc San Bemardilll) Inlernalional Airport. '!bese vital
                                                                                                                   --
                !i:~!




                  infrlt'ilrut:lure improwlDelllS, e11l{lloytd t!'rougll the dwru o( EDI\, resuh«i in I
                                                                                                                              J
                                                                                 --




                  trarulformalion or dilapidated huiktinas llrtd hanll"~. which will now begin 1(> &CDerale
                                                                                                                                                                   ,;,
                                                                                                                                               <I~




                  lease revm"es to £uppoi11h¢ e"er-int=uinll e~p"rtl'I:1 ",lated to lhe! opcnllions of the Sun
                                                                                                                                                                                                    i!r
                                                                                                                                                               Q




                  Eteroonlioo lnlCmllol,onlll Airport. While we are eUfTCatl)' ~llIratbl: alld trading OUI
                                                                                                                                                                                                                      _
                                8~




                                                                                                                                                    =i




                  ,eVCn\1ClI 0" a per·facility b'llSi,. "dUR:..ing Ihe n:llllivc program inculM gcrK.,ftufd from
                                                                                                                                               ~




                                                                                                           26
 

U.S. Department of Commerce                                                               Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                                October 2008 
 




                                                                                        Mt. j),,>i Shq>ponJ
                                                                         R<g;on.I1""P<"'"     0<"",.. "'' ' I' '
                                                                                                  for
                                                                                    orn« oflllSl'<eto< GcrooI.1
                                                                                 U.S. Deportm<nt ofComo",,,,,
                                                                                             Seple!rlbct~4. 200Il
                                                                                                       1'''(1< 1   ofS


                   ,.... o'p",,";',,- ol>e "';<p<>tI .1.. "I"'<Blo. """"" tl>< ,,",om""''' for 'I>e '""'"" onJ
                   """,; ..«1 "P"''';'''' of an t'AA P>Jt-IJ9 ,,,,m,,,,,,,iol .irpon, ",hieh p.ra","'e" ",~u;t"
                   'b.t WI) here 00 ..,..,We oper.Uog ami gra.......... nce covenan" U"" re<trict 1~ Airp<>lt
                   from di       i:ll! Alrpon """'""" for """'in I""P"=- Wh;lo 'ne ..bmiosion of •
                   mrtiliuliool pion", the EDA lOr revi", ,tod con<U""""';' coltoinl". ""''''l'"ia<e,'':Ill
                   eroer&i"ll public Alrpon. ","',Ictine tl>«< vaM"'    I""""", .... =os for purpo... other ",,'"
                   soppor<;'i ,be 0.....,.]1 M-ioitli .....-..;on. cf ne Son B""",d;1lO Intero'lLcn,1 A;rporl,
                   ""y b«<>rn< J"<'blenurt;e wi'h '<>p«1 '" 'lI<    "ilpo,,', ,biliLy'" comply ",i,o FAA and
                   0""" "1'.... if1l and fi~al ~.ido:l"", N<vm..,l<.,. ... bIni.,i", ch reu,;nz.o.tion plan
                   i. ooosi>te1l1 with ,.., <COOOITIic dcvelop-nmt i",k and objecti ........ well .. 'ho B_
                   R""", Plan previou>Jy lldopt«l by IVDA fo< the "'.Jcwlopm.... l ofllle     f"""', Norton A~
                   Foroe B....

           F .....     n!ff r"muly M.ncsp"'            s,.",,,, ".N. ,..  p"........ n'; In lin .ffort '" <oof..-m
                  ,.j'h "Wli<'ble EDA gnn' T"'Iuin:mena .. well .. the OT;Woal 1elli.s1"1.... 0l>J EDA ;n",m
                  for "'" of'lIc!c fund.. the JVIJ" orn.gJI' "' mate/ret.. " j<>I>s .. on ;",:ht.", kn<:~1 oft~;,
                  project i'vutmenl In 011" mtonoo. ,ohmer wu relo"'"«1 '" .n ,Itemote "'". p..,.LWlt
                  '" FDA ,<>'kw. to f"""", No>r\nII ~it Fo"", Ila>< B,;ldi"ll Nc, 730. ""'1011 oIloweO the
                  EDA ond IVDA '" !'<~',"at, o",r 50 o<w jo" now In Build;"~ No.                 no,    Wh~e the
                  mo,e bf tho 0>;11", (IIVAe ...,;pmcnL) WIll apptOv<d by rh< 'hon IIDA Pro;<01 M _
                  ot 'hot 11m<, wo: <10 approoilot< ,ho I'"0S""~'" and proacti.. wo,k Ihlt fDA 'u.Jf ..... pJoyo
                                              of''''''''
                  "';,h respoc' to ,~e dc:11... 'Y        projectJl. IVDA will '~"l'J"OI'riot< Ole!" to ensure
                  ""'" eff«ll", communi",'i"" and 0Ihet proces... in Ihe f"l." to 0Tl1llI< complionco
                  "';lh mM and 0Ihet    "'Q';""""''"'
                   A. dillOlWeJ, ,he IVDA aod A;""", w .... 1d Ilk< '0 'honk YO<l for lhe opportuni'1 '" ",.;."
           and eo."n.....' "" th< ~ .. fl AWl' Repor1, We do """"11,1"" ohat the ><<>pe of ,h" and;1 sp.onII«I
           .......1,..,"" and ,h., ,"",~e<I ;n • "",i<w of on ioitiol >COl"', whkh >«Jl'O wall """"'""" by ED"
           -""IF 01 lhat I;me, Since: oh.. 'Imo. 0 new EDA I'tojed      1>1_       w" ~ Md I1u ImIce
           """"<d 1;......ly with IVDA Slllffto implentcnl theo< and fut"", rro.i<'"" 1I0we_. due to
           "I'J'T"I'i.. e ,..,.ooopifl£ of projtd' I'='iooaly opfW<>V<d b~ ,1>0 prior EDA p",jtd M..",..,.. Ihe
           ....'"""'0' ond MOdit o. ~ d 0lId <ompkt<d by )'OUf ... fl.          wo.    ".furtu.nal.iy <otnplu«I
           ond !>od odohoocd who' i. no", • f<>lrict<d _         of worIo. for "".e of'ho f'1'01«" ;n q""";oo,

                   Baoe Re"", i • ..-.;l ""OI;Oue. to "" On mJOOllS 1"""'" me "hid> con"" b< ,oo"''''f.lly
           emI;,,;med 0' "'ali"'" ";1""'1 eoll._ion .... eorrunmleotion betwcon Ih<: kuJ reo""-",,y
           and ;!< fedet,l port..... The IVDA and SBlAA oinc<I<ly "I'I""t""e 'nd rei, ""'" rh< <ooun",""
           ''"'''' of tbeo< .9""'""      ODd 'Oci, prof"'iooaJ."If.   We hove..-.J ",;11 """tin.... '" ;mp<c'"
           both oor p""'0"'" .-.d thei, ,.".1", ",,,,I.. rho! ",,11 <oo';n"" '" <k,eJop .0<1 ooild .job ba>o_
           ""'''''''' _ '" ..._    ,be 01""""0'" of'he San lle....ru;oo Inocmo'ioool AI,por1, oow ... ~        i,'"




                                                            27
 

U.S. Department of Commerce                                                                Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                                 October 2008 
 




                                                                                             Mr. o..id ShtPl'oM
                                                                           R<QO:m;oI l",p""o. G<1>«a1 r", Auo;Ih,
                                                                                      Off"'e of I""p<tw C""",",I
                                                                                  U,S. D<1"'''mem ofComm<r«
                                                                                             Sq>t<moo l4, :rooS
                                                                                                      ~.8.f!



           ,he fi""," r", ,I>< OCOfIOOlie bendi' .r tho "gioo. We ""p<t'fully r<q""'" yot>" "view and
           ~r1lLioo tnd hopz)'<>\l will (;t>d. h<<<in,!he ....i, for, r<>'<,,'iol ""-'go", the r,,,,1 0001"

           """"" "od ~,ld"'Il'- A. . lway~ '" or, happy to pro"kk 011)" addition,1 i,of""...,ion or ~ '"
           m«I wi,~ _Ii",. ~., '" disc"" 1_ ......... fu"h".

                   APn, _        you lor your ""","';OO.ioo .r thi, "0)' ;mpor\aIIl moller, Pi.... ""Lew
           u,;, l"r"""",loo or yooreoo",ni,nco<. Iflbe« .... "ny<:ooc<rm "" qu,,.'i..., 0< if)'O" req"i", "">'
           aolddi<lnal inf."""."", pi..... <10 _ h"I.... "'     ,."oc,
                                                                   m< dlrectly " (909) 3.2-4100. .."",;""


           "'
                                                 INl..ANfl VAl.l.~:V [)I':VHOP,'.n;m- /lGfl'iCI-"
                                                 SAN Bt:RNAIWlr>O tNTEIU'l/lTIO....\L AIRPORT



                                                 ~~.. i?cr-'
                                                 l .. erim   E>«,,,;,,, Oi",,",,,
           «'     (~   ... _.,.,.,..)
                  A. ' - " S_. " _ " " " " " . . - " . . . _ ......"""'.., ,,;,, ......., lO'l-O'W->4l1)
                  .....,,""""'.c 10' ""'1'<''''_
                                    EDA




                  _.-
                  _          _   • J,",   Sn'M ...._    ood IVDA c,.o.w
                  _ " ' " ""if """,        'VPA Co-OooO
                  Mdooo' .........
                  A~.    _




           , - -..."",,,-,*,-,.,,..,....




                                                               28
 

U.S. Department of Commerce                                         Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                          October 2008 
 



                                           APPENDIX C

                         San Bernardino International Airport Authority
 

                                   San Bernardino, California
 

                           Final Audit of EDA Grant No. 07-49-05304
 

                          Summary of Source and Application of Funds
 

                For the Period of September 26, 2002 through September 30, 2005
 




                                                        Original
                                                       Approved        Approved
                                                        Award           Award         Claimed by
                                                        Budget          Budget         Grantee
Source of Funds

Federal share                                          $2,375,000      $2,374,999      $2,374,999

Recipient share                                          263,889          263,889         263,889

  Total                                                $2,638,889      $2,638,888      $2,638,888




Application of Funds

Administrative and legal expenses                       $100,000          $98,001         $98,001

Architectural and engineering fees                       250,000

Other architectural and engineering fees                   50,000           18,158          18,158

Project inspection fees                                     5,000

Construction                                            2,101,889       2,522,729       2,522,729

Contingencies                                            132,000

  Total Project Costs                                  $2,638,889      $2,638,888      $2,638,888




                                               29
 

U.S. Department of Commerce                                      Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                       October 2008 
 



                                        APPENDIX D

                         San Bernardino International Airport Authority 
 

                                   San Bernardino, California 
 

                          Interim Audit of EDA Grant No. 07-49-05422 
 

                          Summary of Source and Application of Funds 
 

                   For the Period of September 30, 2003 through June 30, 2007 
 



                                                                                   Claimed by
                                                                                    Grantee
                                                         Approved               through June 30,
                                                        Award Budget                  2007
 Source of Funds

 Federal share                                          $    2,422,500          $      2,342,912

 Recipient share                                               269,167                   260,324

 Total                                                  $    2,691,667          $      2,603,236




 Application of Funds

 Administrative and legal expenses                      $       95,000          $        132,328

 Architectural and engineering basic fees                      100,000

 Other architectural and engineering fees                       10,000                        925

 Project inspection fees                                          5,000

 Construction and project improvement expense                2,303,890                 2,469,983

 Contingencies                                                 177,777

   Total Project Cost                                   $    2,691,667          $      2,603,236




                                             30
 

U.S. Department of Commerce                                      Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                       October 2008 
 



                                       APPENDIX E

                                Inland Valley Development Agency
 

                                    San Bernardino, California 
 

                           Interim Audit of EDA Grant No. 07-49-05623 
 

                           Summary of Source and Application of Funds 
 

                 For the Period of September 23, 2004 through September 30, 2006 
 



                                                                                 Claimed by
                                                                               Grantee through
                                                          Approved              September 30,
 Source of Funds                                         Award Budget               2006

 Federal share                                          $      3,230,000      $         2,569,936

 Recipient share                                                 358,889                  285,548

 Total                                                  $      3,588,889      $         2,855,484



 Application of Funds

 Administrative and legal expenses                      $         73,889

 Project inspection fees                                           5,000

 Demolition and removal expense                                3,500,000

 Contingencies                                                    10,000

   Total                                                $        3,588,889    $         2,855,484




                                              31
 

U.S. Department of Commerce                                      Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                       October 2008 
 



                                           APPENDIX F

   Inland Valley Development Agency and San Bernardino International Airport Authority 
 

                                 San Bernardino, California 
 

                        Interim Audit of EDA Grant No. 07-49-05672 
 

                       Summary of Source and Application of Funds 
 

                    For the Period of June 21, 2005 through June 30, 2007 
 



                                                                                 Claimed by
                                                             Approved          Grantee through
Source of Funds                                             Award Budget        June 30, 2007

Federal share                                           $        4,037,501    $         2,449,713

Recipient share                                                    448,611                272,190

Total                                                   $        4,486,112    $         2,721,903



Application of Funds

Administrative and legal expenses                            $     150,000    $              4,263

Architectural and engineering basic fees                           500,000                  68,082

Construction and project improvement expense                     3,549,112              2,649,558

Contingencies                                                      287,000

   Total                                                $        4,486,112    $         2,721,903




                                               32
 

      U.S. Department of Commerce                                                      Audit Report STL-18837-9-0001 
 

      Office of Inspector General                                                                       October 2008 
 



                                                    APPENDIX G

                                         San Bernardino International Airport Authority
 

                                                    San Bernardino, California 
 

                                            Final Audit of EDA Grant No. 07-49-05304 
 

                                             Summary of Financial/Compliance Audit 

                                 For the Period of September 26, 2002 through September 30, 2005 


                                                                                             Per Audit
                              Approved
                               Project          Claimed by                                Costs                            Ref.
Cost Category                  Budget            Grantee              Accepted           Questioned      Unsupported       Notes
                                                                                                           (Note 1)
Administrative and legal
expenses                     $   98,001        $    98,001        $       6,705         $     91,296     $    83,232        2
Other architectural and
engineering fees                 18,158             18,158              18,158
Construction and
project improvement
expense                        2,522,729         2,522,729            2,430,730               91,999          86,341        3
    Total 	                  $ 2,638,888       $ 2,638,888        $   2,455,593         $    183,295     $   169,573
Federal share of accepted
project cost (90% not to
exceed $2,375,000) 	 	                                            $   2,210,034


Less federal disbursements                                            2,375,000
Amount due the
government                                                        $    164,966



                Reference Notes

                Note 1 	 	 Unsupported costs are those costs that the recipient could not adequately
                           support at the time of audit; unsupported costs are also included in the total of
                           questioned costs.

                Note 2 	 	 Questioned costs of $91,296 consisted of the total of labor and fringe benefits
                           claimed ($83,232) and consulting fees of $8,064. We questioned personnel and
                           fringe benefits costs as unsupported because the grantee's time distribution
                           record failed to account for the total time for which employees were
                           compensated. [OMB Circular A-87, Attachment B.11.h(4) and (5)(b).] We
                           questioned the consulting fees as ineligible for federal participation. EDA
                           personnel previously declared the costs ineligible because the grantee failed to
                           adhere to minimum federal procurement standards pertaining to sole source
                           procurements, use of the hourly rate reimbursement method, procurement
                           histories, and cost analysis, and separate negotiation of profit.




                                                             33
 

     U.S. Department of Commerce                                                          Audit Report STL-18837-9-0001 
 

     Office of Inspector General                                                                           October 2008 
 


              Note 3 	 	 The components of the grantee’s construction claim are shown below in
                         Schedule F-1.

Schedule F-1. Components of Claimed Construction Cost
                                                 Claimed           Accepted          Questioned        Unsupported        Notes
Construction expense                            $ 2,366,092        $ 2,216,517        $ 149,575        $   149,575         3a
Miscellaneous expense                                21,062             21,062
Architectural and engineering fees                  197,623            191,965               5,658                            3b
Misclassified items                                   1,186              1,186
   Subtotal                                    $ 2,585,963         $ 2,430,730         $ 155,233       $     149,575
Less grantee adjustment                             (63,253)                             (63,253)            (63,253)         3c
   Subtotal                                    $ 2,522,710                             $ 91,980        $      86,322
Plus audit adjustment                                    19                                    19                 19          3d
   Total construction expense                  $ 2,522,729         $ 2,430,730         $ 91,999        $      86,341

                   Notes to Schedule F-1

                   3a	 	   We questioned $149,575 of the $2,366,092 claimed for construction expense representing the
                           value of change order number 1 to the JM Carden contract as unsupported. The grantee was
                           unable to provide the required cost analysis or a copy of the bilaterally executed change order.
                           [OMB Circular A-87, Attachment A, C.1.j and 15 CFR Parts 24.20(b)(6) and .36(f)]

                   3b	 	 We questioned $5,658 of consulting costs consisting of $5,495 in fees for services after the
                         consulting agreement expired and $163 in reimbursements in excess of the rate specified in the
                         agreement billing schedule. [OMB Circular A-87, Attachment A.C.1.j]

                   3c	 	 The grantee incurred a total of $2,585,963 in construction costs but offset that amount by a
                         $63,253 credit representing an overrun of the approved project. We offset questioned and
                         unsupported costs by the amount of the overrun.

                   3d	 	 We adjusted questioned and unsupported cost by $19 representing the difference between the
                         $2,522,710 claimed and the $2,522,729 the grantee actually incurred for construction costs.




                                                                34
 

           U.S. Department of Commerce                                                              Audit Report STL-18837-9-0001 
 

           Office of Inspector General                                                                               October 2008 
 



                                                                APPENDIX H
                                              San Bernardino International Airport Authority
 

                                                        San Bernardino, California 
 

                                               Interim Audit of EDA Grant No. 07-49-05422 
 

                                                 Summary of Financial/Compliance Audit 
 

                                  Through Outlay Report and Request for Reimbursement No. 21 (Revised) 
 

                                        For the Period of September 30, 2003 through June 30, 2007 


                                                                                                           Per Audit
                                        Approved            Claimed by 	                               Costs 	 	                        Ref.
Cost Category	 	                       Award Budget             Grantee             Accepted        Questioned         Unsupported      Notes
                                                                                                                           (Note 1)
Administrative and legal
expenses                           $        95,000          $     132,328           $     10,006    $ 122,322          $     120,087     2

Land, structures and rights-of
way…
Relocation expense and
payments
Architectural and engineering
fees                                       100,000                        -                     -
Other architectural and
engineering fees                            10,000                   925                     925
Project inspection fees                      5,000                     -                        -
Demolition and removal expense
Construction and project
improvement costs                        2,303,890              2,469,983               2,206,515     263,468               177,778      3
Equipment expense
Contingencies                              177,777
  Total project cost               $     2,691,667          $ 2,603,236             $ 2,217,446     $ 385,790          $    297,865
Federal share of accepted costs
(90% not to exceed $2,422,500)                                                      $ 1,995,701
Less federal funds disbursed                                                         2,342,912
Amount due the government through the interim audit cutoff date                     $ 347,211


                     Reference Notes

                     Note 1 	 	 Unsupported costs are those costs that the recipient could not adequately
                                support at the time of audit; unsupported costs are also included in the total of
                                questioned costs.

                     Note 2 	 	 We questioned $122,322 consisting of $120,087 in grantee labor and related
                                fringe benefits expense and $2,235 in consulting fees. We questioned as
                                unsupported the total of labor and fringe benefits claimed for lack of an
                                adequate time distribution record. Federal cost principles applicable to the
                                grant at OMB Circular A-87, Attachment B 11(h)(4) and (5)(b) require the
                                grantee to maintain time distribution records to support labor and fringe
                                benefits allocated to the grant. Such records must document 100 percent of the
                                time for which each employee is compensated. SBIAA used an exception-


                                                                              35

U.S. Department of Commerce                                                     Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                      October 2008 
 


                    based time distribution record that did not account for 100 percent of the time
                    for which each employee was compensated. We questioned $2,235 in claimed
                    consulting fees consisting of $1,500 under a consulting agreement that EDA
                    had declared ineligible for federal participation and $735 for consulting fees
                    applicable to an FAA-funded roof project for Building 763. Federal cost
                    principles at OMB Circular A-87, Attachment A, C.1(b) and 3(c) require costs
                    to be allocable to the grant-funded project.

       Note 3 	 	 The components of the grantee’s construction claim are shown below in
                  Schedule G-1.

   Schedule G-1. Construction Costs Claimed
                                                                                    Per Audit
                                             Claimed by
      Construction Costs                      Grantee        Accepted      Questioned      Unsupported      Notes
        Aero                                  $1,484,638
           Change Order Number 1                                             $ 144,000         $ 144,000        3a
           Change Order Number 3                                                 15,638            15,638       3b
           Base Contract                                     $1,325,000
        Allison Mechanical                        296,021       210,331          85,690                          3c
        American Elevator                          20,511        20,511
        Best Roofing                              229,834       229,834
        DM Electric                               145,224       145,224
        JM Carden                                  10,216        10,216
        RSE/Sierra                                 99,460        99,460
        Wide Lite                                  54,669        54,669

     Miscellaneous                                 80,204        80,204
     Architectural and engineering fees            46,865        28,725          18,140            18,140       3d
     Advertising                                    2,341         2,341

       Total                                  $2,469,983     $2,206,515      $ 263,468        $ 177,778

           Notes to Schedule G-1:
           3a	 	 We questioned $144,000 for change order number 1 under the Aero Automatic Sprinkler
                 Company contract as outside the scope of the grant and also as unsupported. According to
                 documentation supplied by the grantee, change order number 1 was to upgrade Aqueous Film
                 Forming Foam concentration level from 3 to 1 percent for Bays 3 and 4 of Hangar 763. The
                 purpose of the EDA grant was to "construct building and fire code compliance improvements"
                 in several buildings, including Hangar 763, to enable the grantee "to obtain a certificate of
                 occupancy to lease Hangar No. 763 and generate much needed revenues." Hangar 763 consists
                 of four bays. The Aero contract was to install a fire suppression interior piping system to Bays 1
                 and 2 of Hangar 763. Bays 3 and 4 had been the subject of $30 million in leasehold upgrades by
                 a tenant in the early 1990s and were already occupied. Change order number 1 provided for
                 consistencies and efficiencies in the fire suppression system for Hangar 763 and in the airport
                 fire suppression system as a whole, but it was not necessary to make Bays 3 and 4 code
                 compliant or available for occupancy as both bays 3 and 4 already housed tenants and therefore
                 is outside the scope of the EDA grant. The contractor provided supporting cost data for the


                                                      36

U.S. Department of Commerce                                                       Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                        October 2008 
 


                   $144,000 proposed change order, however, the grantee was unable to provide evidence of the
                   supporting cost analysis required by 15 CFR 24.36(f). [OMB Circular A-87, Attachment A.
                   C.1.a, b, d, and j. and 15 CFR 24.36(f)]

           3b	 	 We questioned $15,638 for change order number 3 under the Aero Automatic Sprinkler
                 Company contract as unsupported. Although the grantee reimbursed the contractor for the
                 change order we were unable to locate a signed copy of the change order or the grantee's cost
                 analysis required by 15 CFR 24.36(f). [OMB Circular A-87, Attachment A. C.1.j and 15 CFR
                 24.36(f)]

           3c	 	   We questioned $85,690 in claims for Allison Mechanical as unreasonable and unallocable to the
                   award. The grantee purchased a chiller from Allison Mechanical for $47,812, which was
                   installed in Building #48 on April 12, 2004 for the benefit of an existing lessee. Building 48 was
                   not a part of the approved grant scope. On December 5, 2005 Allison Mechanical completed
                   moving the used chiller from building #48 to building #730. We questioned $15,740
                   representing 19.75 months depreciation on the chiller as unallocable to the project plus $69,950
                   in relocation costs as unreasonable and unnecessary and therefore unallowable for EDA
                   participation. OMB Circular A-87, Attachment A, C.1.a., 1.b., 2, and 3.

           3d	 	 The grantee claimed a total of $202,205 consulting fees for electrical engineering work. This
                 consulting effort was claimed as part of architectural and engineering fees included in
                 construction costs and consisted of $155,590 of a total of $2,522,729 in construction costs
                 claimed for grant 07-49-05304 (see Schedule F-1) and $46,865 of a total of $2,469,983 in
                 construction costs claimed for grant 07-49-5422. We accepted a total of $184,065 for electrical
                 engineering expense and questioned the balance of $18,140 under grant number 07-49-5422,
                 which represents the amount paid and claimed in excess of the agreement's fee ceiling of
                 $184,065.




                                                        37
 

U.S. Department of Commerce                                                            Audit Report STL-18837-9-0001 
 

Office of Inspector General                                                                             October 2008 
 



                                                  APPENDIX I

                                      San Bernardino International Airport Authority
                                              San Bernardino, California
                                   Interim Audit of EDA Grant No. 07-49-05623
                                       Summary of Financial/Compliance Audit
                          For the Period of September 23, 2004 through September 30, 2006


                                                                                      Per Audit
                                   Approved        Claimed
                                    Project           by                                                           Ref.
Category of Expense                 Budget         Grantee         Accepted       Questioned      Unsupported      Notes
                                                                                                      (Note 1)
Administrative expense            $     73,889    $   42,871      $      1,365    $      41,506   $       41,506    2
Project inspection fees                  5,000
Demolition and removal              3,500,000      2,812,613          2,812,613
Contingency                             10,000
  Total project cost               $3,588,889    $ 2,855,484      $ 2,813,978     $      41,506   $       41,506
Federal share of accepted costs
(90% not to exceed
$3,230,000)	                       	                              $ 2,532,580
Less federal funds disbursed 	                                      2,569,936
Amount due the government
through the interim cutoff date	 	                                $     37,356



         Reference Notes

         Note 1 	 	 Unsupported costs are those costs that the recipient could not adequately
                    support at the time of audit; unsupported costs are also included in the total of
                    questioned costs.

         Note 2 	 	 We questioned $41,506 as unsupported consisting of the total of labor and
                    fringe benefits costs claimed, for lack of an adequate time distribution record.
                    Federal cost principles applicable to the grant at OMB Circular A-87,
                    Attachment B. 11(h)(4) and (5)(b) require the grantee to maintain time
                    distribution records to support labor and fringe benefits allocated to the grant.
                    Such records must document 100 percent of the time for which each employee
                    is compensated. The grantee used an exception-based time distribution record
                    that did not account for 100 percent of the time for which each employee was
                    compensated.




                                                          38
 

        U.S. Department of Commerce                                                   Audit Report STL-18837-9-0001 
 

        Office of Inspector General                                                                    October 2008 
 



                                                       APPENDIX J

                   Inland Valley Development Agency and San Bernardino International Airport Authority
                                                 San Bernardino California
                                        Interim Audit of EDA Grant No. 07-49-05672
                                          Summary of Financial/Compliance Audit
                               Through Outlay Report and Request for Reimbursement No. 5
                                   For the Period of June 21, 2005 through June 30, 2007

                                                                                        Per Audit
                                      Approved          Claimed                             Costs                         Ref.
Cost Category                     Project Budget       by Grantee     Accepted           Questioned    Unsupported       Notes
                                                                                                            (Note 1)
Administrative and legal
expenses                          $     150,000    $          4,263   $          0      $      4,263    $        4,263     2
Architectural and engineering
fees                                    500,000              68,082         45,854            22,228                       3
Construction and project
improvement expenses                   3,549,112          2,649,558       2,649,558
Contingencies                           287,000
   Total project cost             $    4,486,112   $      2,721,903   $ 2,695,412           $ 26,491           $ 4,263
Federal share of accepted costs
(90% not to exceed
$4,037,500)                                                           $ 2,425,871
Federal funds disbursed
through claim #5                                                          2,449,713
Amount due the government
through the interim cutoff date                                       $     23,842

                 Reference Notes

                 Note 1 	 	 Unsupported costs are those costs that the recipient could not adequately
                            support at the time of audit; unsupported costs are also included in the total of
                            questioned costs.

                 Note 2 	 	 Questioned costs of $4,263 consisted of the total of labor and fringe benefits
                            claimed. We questioned personnel and fringe benefits costs as unsupported
                            because the grantee’s time distribution record failed to account for the total
                            time for which employees were compensated. [OMB Circular A-87,
                            Attachment B.11.h(4) and (5)(b).]

                 Note 3 	 	 We questioned $22,228 of architectural and engineering consulting costs
                            claimed. The charges were for change order number 4 to the agency’s
                            agreement with GLE Group, which EDA had declared ineligible for federal
                            participation.]




                                                              39

                                       APPENDIX K




October 17, 2008

Mr. Donald Rogers, Interim Executive Director
San Bernardino International Airport Authority
Inland Valley Development Agency
294 S. Leland Norton Way, Suite #1
San Bernardino, California 94208-0131

Dear Mr. Rogers:

Enclosed is a copy of Final Audit Report No. STL-18837-9-0001 concerning the following
Department of Commerce financial assistance award:

       Recipient: 	    San Bernardino International Airport Authority and/or 

                       Inland Valley Development Agency 

       Award Nos.: 	   07-49-05304 

                       07-49-05422                           

                       07-49-05623                           

                       07-49-05672                           

       Funding Agency: Economic Development Administration

The final report was prepared by the Seattle Regional Office of Audits, Office of Inspector General. A
copy of this report will be made available to the public through a posting at:
http://www.oig.doc.gov/oig/reports/economic_development_administration/index.html.

This letter is notice of your opportunity and responsibility to review the report and to develop a
complete response that addresses each audit finding and recommendation. If you believe that the final
report is in error in any respect, or if you disagree with any of the findings and recommendations, it is
important that you explain the error or your reasons for disagreement and submit to the Department
evidence that supports your position. You should also explain how each documentary submission
supports the position you are taking; otherwise, we may be unable to evaluate the information.

Your complete response will be considered by the Department in arriving at a decision on what action
to take with respect to the findings and recommendations in the audit report. Enclosure 1 is an
explanation of applicable administrative dispute procedures.

Your response to this report must be postmarked no later than thirty (30) days from the date of this
letter. There will be no extensions to this deadline. If you do not submit a response within the required
time frame, you will have no other opportunity to submit comments, arguments or documentation
before the Department makes a decision on the audit report Please send your response (including
documentary evidence) to:

                               A. Leonard Smith, Regional Director
                               Seattle Regional Office
                               Economic Development Administration
                               915 Second Avenue - Room 1890
                               Seattle, WA 981.74

Please send a copy of your response to:

                               David Sheppard, Regional Inspector General for Audits
                               Office of Inspector General
                               u.S. Department of Commerce
                               915 Second Avenue, Room 3062
                               Seattle, WA 98174

If you have any questions about the final report or the audit process, please telephone our Seattle
Regional Office at (206) 220-7970 and refer to the audit report number given above.

Sincerely,



Judith J. Gordon
 

Assistant Inspector General
 

   for Audit and Evaluation
 


Enclosures

cc:	 	     Mayor Patrick Morris, President, San Bernardino International Airport Authority Commission
           and Co-Chair, Inland Valley Development Agency Board
           Supervisor Josie Gonzales, Co-Chair, InlandValley Development Agency Board
         . A. Leonard Smith, Regional Administrator, EDA Seattle Regional Office
 

           Kristine Skrinde, Chief, EDA Construction Management
 

           Mary Rudokas, EDA Project Engineer
 

           Anita Sanders, EDA Audit Liaison Officer
 

                                                                                       Enclosure 1


NOTICE TO AUDITEE
                                    Financial Assistance Audits


  1.	 Audit requirements applicable to a particular financial assistance award may be established by
      law, regulation, policy, or the terms of the recipient's financial assistance agreement with the
      Department of Commerce.

  2.	 The results of any audit will be reported to the bureau or office administering the financial
      assistance award and to the recipient/auditee, unless the Inspector General of the Department
      determines that it is in the Government's interest to withhold release of the audit report.

  3.	 The results of an audit may lead to adverse consequences for the auditee, including but not
      limited to the following actions (which are subject to applicable laws and regulations):

         •	      suspension and/or termination of current awards;

         •	      referral of identified problems to other federal funding agencies and entities as
                 deemed necessary for remedial action;

         •	      denial of eligibility for future awards;

         •	      canceling the authorization for advance payment and substituting reimbursement by
                 check;

         •	      establishment of special conditions in current or future awards; and,

         •	      disallowance of costs, which could result in a reduction in the amount of federal
                 payments, the withholding of payments, the offsetting of amounts due the
                 Government against amounts due the auditee, or the establishment of a debt and
                 appropriate debt collection follow-up (including referrals to collection agencies).

     Because of these and other possible consequences, an auditee should take seriously its
     responsibility to respond to audit findings and recommendations with explanations and
     evidence whenever audit results are disputed and the auditee has the opportunity to comment.


  4.	 To ensure that audit reports are accurate and reliable, an auditee may have the following
      opportunities to point out errors (of fact or law) that the auditee believes were made in the
      audit, to explain other disagreements with audit findings and recommendations, to present
      evidence that supports the auditee's positions, and to dispute final recommendations:
•	   During the audit, the auditee may bring to the attention of the auditors at any time
     evidence which the auditee believes affects the auditors' work.

•	   At the completion of the audit on-site, as a matter of courtesy, the auditee is given
     the opportunity to have an exit conference to discuss the preliminary audit findings
     and to present a clear statement of the auditee's position on the significant
     preliminary findings, including possible cost disallowances.

•	   Upon issuance of the final audit report, the auditee may be given the opportunity to
     comment and submit evidence during the 30-day period after the transmittal of the
     report. (There are no extensions to this deadline.)

•	   Upon issuance of the final audit report, the auditee is given the opportunity to
     comment and to present evidence during the 30-day period after the transmittal of
     the report. (There are no extensions to this deadline.)

•	   Upon issuance of the Department's decision (the "Audit Resolution
     Determination"), on the audit report's findings and recommendations, the auditee
     has the right to appeal for reconsideration within 30 calendar days after receipt of
     the Determination letter if monies are due the government. (There are no extensions
     to this deadline.) The Determination letter will explain the specific appeal
     procedures to be followed.

•	   After an appeal is filed, or after the opportunity for an appeal has expired, the
     Department will not accept any further submissions of evidence concerning an
     auditee's dispute of the Department's decisions on the resolution of the financial
     assistance audit. If it is determined that the auditee owes money or property to the
     Department, the Department will take appropriate collection action but will not
     thereafter reconsider the merits of the debts.

•	   There are no other administrative appeals available in the Department.
